<html>
<title> - THE IMPACT OF ABORTION ON WOMEN</title>
<body><pre>[Senate Hearing 108-1016]
[From the U.S. Government Publishing Office]









                                                       S. Hrg. 108-1016

                    THE IMPACT OF ABORTION ON WOMEN

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON SCIENCE, TECHNOLOGY 
                               AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-303 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 3, 2004....................................     1
Statement of Senator Brownback...................................     1
Statement of Senator Lautenberg..................................     2

                               Witnesses

Forney, Georgette, President, National Organization of 
  Episcopalians for Life (NOEL)..................................     4
    Prepared statement...........................................     6
Jenkins, Michaelene, Executive Director, Life Resource Network...     9
    Prepared statement...........................................    11
Shadigian, M.D., Elizabeth, Clinical Associate Professor, 
  Department of Obstetrics and Gynecology, University of Michigan    26
    Prepared statement...........................................    28
Smith-Withers, Reverend Dr. Roselyn, D. Min., Co-Convener, Clergy 
  Advisory Committee of the Religious Coalition for Reproductive 
  Choice (RCRC), and Founder and Pastor, The Pavilion of God.....    12
    Prepared statement...........................................    14
Stotland, Nada L., M.D., M.P.H., Professor of Psychiatry and 
  Professor of Obstetrics and Gynecology, Rush Medical College...    47
    Prepared statement...........................................    48
 
                    THE IMPACT OF ABORTION ON WOMEN

                              ----------                              


                        WEDNESDAY, MARCH 3, 2004

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. The hearing will come to order. We 
welcome everybody here today.
    Every human life is both important and sacred, particularly 
that of a woman contemplating abortion. She must have the best 
information possible on the impact of the abortion on her and 
on her child.
    I've convened this subcommittee hearing today in order to 
better understand the science on the physical and psychological 
health consequences on women of induced abortion, as well as 
getting a better picture of the quantity and quality of medical 
data that's available.
    This hearing is about the mom. What impact does an abortion 
have on her? Whether one is pro-life or pro-choice, we should 
know the health consequences of abortion on women.
    Since the Roe v. Wade decision 31 years ago this past 
January, it's estimated that at least 40 million abortions have 
been performed in the United States, yet there are few 
reporting requirements for this particular procedure. The lack 
of information on the medical impact of abortion on women is 
quite puzzling when compared to other medical procedures, such 
as hysterectomies, heart and kidney transplant surgeries, and 
even plastic surgery. We know, in great detail, the positive 
and negative long-term effects of procedures, from heart 
surgery to plastic surgery, and yet know so little about the 
long-term effects of abortion.
    In 1973, when the court ruled on Roe v. Wade, we had no way 
of knowing the long-term physical and psychological health 
consequences of abortion. Common sense and health sense should 
have dictated that the long-term impact of abortion on women 
would have been chronicled from the very outset in the 
beginning of the post-Roe era. It's not. It has not. There is a 
lack of research data on this subject.
    Whether we agree or disagree on the sanctity of the child's 
life growing in a mother's womb, we all agree on the sanctity 
of the mother's life, so we all should want to know how 
abortion impacts the mother. Surely we'd want to know the 
therapeutic or negative consequences of an abortion.
    Today, we'll hear from two panels. Our first panel of 
witnesses will discuss their personal experience with abortion 
and with counseling other women who have had abortions. And I'd 
like our second panel of medical professionals to share what 
they have found regarding induced abortions; specifically, what 
do we know, from observable fact, about the long-term health 
impact of abortion on women? And also, how is the quantity and 
quality of information that is available on the long-term 
health impact of abortion on women? In other words, do we need 
more information?
    This will be an interesting hearing on a tough topic. It's 
one that's had a lot of interest around the country in state 
legislatures addressing it, but I want to try to get to the 
facts today of: What do we know, what don't we know, what do we 
need to know in this arena? So I'm hopeful we can start that 
journey, start that understanding here today.
    I'll turn to my colleague from New Jersey, Senator 
Lautenberg, for an opening statement.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman.
    I'd like to start with just a review of this Committee's 
jurisdiction. And I have this as a design, and it says that 
this Committee's jurisdiction is National Aeronautic and Space 
Administration, National Oceanic and Atmospheric 
Administration, National Science Foundation, National Institute 
of Standards and Technology, Office of Science and Technology 
Policy, U.S. Fire Administration, Federal R&D funding, 
Internet, earthquake research programs, encryption, technology, 
international science and technology.
    So I have a problem, Mr. Chairman. And I have high regard 
for you. We don't agree often on subjects, but here I can't 
understand where this subcommittee gets jurisdiction over the 
subject matter of this hearing. Now, are we--if it's outer 
space, are we concerned about abortions being performed in 
outer space? It doesn't seem appropriate to create a forum 
within this subcommittee for espousing anti-abortion views 
within our jurisdiction.
    And having said that, I'd perhaps be more understanding 
about the subject matter of today's hearing, the impact of 
abortion on women's health, if we scheduled a hearing for 
tomorrow on the impact of making abortion illegal, again, on a 
woman's health. And I think it's fair to predict that no such 
hearing has been, or will be, scheduled in this Subcommittee.
    I brought a picture with me here today, and it's said that 
a picture is worth a thousand words. And this is a picture of 
the signing when the partial-birth--the so-called partial-birth 
abortion ban went into law. You don't see a woman in there. Not 
one. What we see is a group of smiling men watching the 
President sign away a woman's rights and jeopardize their 
health. Notice, not a woman in the picture. It's all men. 
They're in charge. And I call this a ``male-igarchy''--it's an 
expression that I invented--a group of men making decisions 
that have enormous repercussions for the physical, mental, and 
economic well-being of women and their families.
    And one of the reasons why we were so anxious to wipe out 
terrorism in Afghanistan is the kind of repression that women 
had to go through in that society. And I remember when women 
didn't have a right to choose, and I remember the horrific 
impact of the crudely done abortion on women's health.
    So I think that it's fair to say, Mr. Chairman, that I 
don't agree that this Subcommittee--I'm a Member of it--ought 
to be a forum for retrogressive reviews of what ought to 
happen. This could be an appropriate subject for the Health and 
Human Services Committee. But I don't think, under the title of 
Subcommittee on Science, Technology, and Space, that we ought 
to distort the parameters of jurisdiction in this Committee for 
a review of principally anti-legal-abortion matters of privacy 
that have been established by the Supreme Court to establish 
private points of view that have little or no relationship to 
this Committee's jurisdiction.
    So I hope that we'll reconsider some of the agenda that 
this Subcommittee seems to be having. And I would be more than 
willing to ask for a review--or likely to ask for a review of 
what this Committee's jurisdiction is and whether we ought to 
be spending time on this particular subject in this 
Subcommittee.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much, Senator Lautenberg. 
And I have great respect and admiration for you and your 
abilities.
    And we do have jurisdiction, as you listed in the items 
there, over research and development budgets for the Federal 
Government. And what we're finding here, and what I've read in 
the written testimony that's been submitted, particularly by 
the panelists that are going to be submitting it here, is that 
we have a lack of information here on a very basic scientific 
issue: What is the long-term impact of abortion on women? And 
everybody agrees the woman's life is sacred. And what we're 
looking at with this is, Do we need more information? Should we 
be funding more research at the Federal level to try to 
understand this?
    This is a widespread practice in the United States, it is 
legal, it continues to be legal. But we have a number of 
medical practices in this country that we do in-depth study to 
try understand what's its impact on people. And the question 
here is whether or not we should be funding more research and 
development, and that's why this is under the jurisdiction of 
this Committee.
    Senator Lautenberg. Well, Mr. Chairman, with all due 
respect, I think that we ought to study things like: What's the 
impact of helmets on motorcycle riders? What's the impact of 
poor nutrition on a child's development? What's the impact of 
lack of sensible advice on family planning? What's the impact 
of foul air on children's health? What do we do about juvenile 
diabetes? If you want to do research on things, then let's open 
this up to all the subjects, and let's find out what happens 
when women are forced to seek relief from a bad pregnancy, and 
a decision made by the woman and her doctor and her family, to 
be overridden by our male-igarchy that says, ``Well, no, we're 
going to make decisions.'' I think that if we're going to get 
into, truly, a balanced program here, you want to do research 
on health issues, then you've got to start at a much different 
place than espousing a relatively limited view on one subject 
so that it slants the outcome in a way that otherwise I don't 
think is appropriate for this Subcommittee.
    Senator Brownback. We'll go to our first panel, and I think 
you'll see the balance here with this panel.
    The first one is Georgette Forney. She's Executive Director 
of the National Organization for Episcopalians for Life, and 
the Co-Founder for the Silent No More Awareness Campaign. She, 
herself, underwent an abortion when she was 16 years of age; 
and, as such, brings this Committee an important perspective on 
the impact of abortion on women. To raise awareness of the 
impact that abortion has on women, Ms. Forney co-founded the 
National Silent No More Campaign. She is the mother of a 
teenage daughter.
    Second will be Michaelene Jenkins. She's Executive Director 
for the Life Resource Network Women's Task Force. Ms. Jenkins 
underwent an abortion when she was 18 years of age and, 
likewise, brings this Committee an intensely personal 
perspective on this issue. She's written and spoken extensively 
on the physical and emotional harms of abortion on women. Ms. 
Jenkins is the mother of two boys.
    And we also have on the panel Reverend Dr. Roselyn Smith-
Withers. She is Co-Convenor of the Clergy Advisory Committee of 
the Religious Coalition for Reproductive Choice, and Founder 
and Pastor of The Pavilion of God, in Washington, D.C. She 
counsels women who have had abortions.
    Ladies, thank you very much for joining us today on a 
difficult topic, one of perhaps even first impressions in the 
U.S. Senate. We do want to get at the facts of what the impact 
of abortion is on a woman.
    And Ms. Forney, we will appreciate your testimony.
    Your written testimony will be included completely in the 
record, so if you want to summarize, that would be fine; if you 
want to read your testimony, that's acceptable, as well. And 
I'm sure we'll have questions.
    Mrs. Forney?

STATEMENT OF GEORGETTE FORNEY, PRESIDENT, NATIONAL ORGANIZATION 
                OF EPISCOPALIANS FOR LIFE (NOEL)

    Mrs. Forney. Thank you. It's a pleasure to be here, and I 
am humbled to come before you all.
    Can you hear me OK?
    Senator Brownback. Yes.
    Mrs. Forney. OK.
    As I prepared my remarks, I realized that if I would have 
been invited to come here 10 years ago, I would have been 
speaking from a pro-choice position, because 10 years ago 
that's how I would have described myself. But a couple of 
things have happened in that ten-year period of time that I'd 
like to share with this Subcommittee to help you understand why 
I now am speaking on behalf of women and the abortion issue.
    First, as you said, I had an abortion when I was 16 years 
old. I was living in Detroit, Michigan, at the time. And I took 
care of the decision all by myself. I drove to the clinic, had 
the abortion, and then I drove on to my sister's house; I 
didn't go back home, because nobody--my parents didn't know I 
was even pregnant.
    When I went to bed that night, I was overwhelmed. I had the 
sense of relief, on the one hand, but, on the other hand, I was 
just in turmoil, and I went to sleep crying. I woke up the next 
morning, and I got dressed, and I was in turmoil. And I 
thought, How am I going to deal with this? And the idea popped 
into my head that I would pretend that the abortion never 
happened, that I would just make the day before go away in my 
mind. I erased history. And that's how I lived for 19 years.
    And I would have always described myself as pro-choice, and 
never said anything negative about abortion. But, as I said, 
three things happened to change my mind. The first thing was 
that, in 1994 I was in my basement, cleaning out some old 
boxes, and in the box I found my yearbook for my junior year in 
high school, the year I had my abortion. As I opened the book 
to go down memory lane, but that instead of looking at the 
kids' pictures, I felt my baby in my arms. Now, sir, you need 
to know that there was nothing in my past that prepared me for 
that. There was nothing that made that happen. It just was 
there. And she was there, and I could feel here little bum and 
her shoulders. And I knew she was a girl, and I knew I had 
missed out on parenting an awesome child. And it was such an 
incredible feeling. And for the first time in 19 years, I 
realized what my abortion did. It killed my baby. And I began 
weeping, and I began to grieve for the first time. And it could 
no longer be just that thing that I was able to deny.
    The second thing that happened in my life was that, after I 
had gone through counseling and I had come to terms and found 
peace with my abortion experience, I had written out my story 
to share with some other women. And I had put a copy of it in 
my Bible and put it in there kind of as a safekeeping. Well, 
without realizing it, my 8-year-old decided to play church and 
went to the Bible to get some scriptures. And when she was 
going through it, she found my testimony, my story, and she 
read it. And the next evening, we were at a restaurant, and she 
said, ``Mom, can I ask you a question?'' And I said, ``Sure, 
honey.'' And she said, ``Were you married when you were 16 
years old?'' And I said, ``No, why?'' And she said, ``Were you 
pregnant when you were 16?'' I put down my fork, I said a 
prayer, I looked at my husband, and I said, ``We need to get 
the check.'' And I said yes to her. And she said--she started 
to ask a question about the relationship--if you're allowed to 
have sex, and then she said, ``Wait, where's the baby now?'' 
And I was not prepared to have to try to explain to an 8-year-
old what abortion was and what I had done to that baby.
    We went through a couple of hours of discussion, her 
questions and so forth. Finally, about 8:30, I said, ``Look, 
honey, it's time for you to be heading to bed. I--enough for 
the evening.'' She said, ``OK, Mommy. But let me just get this 
clear, make sure I have this right.'' She looked me in the eye, 
and she said, ``Tell me. You were pregnant when you were 16-
years-old, and you killed your baby.'' And I had to look my 8-
year-old daughter in the eye and say yes. And that is something 
I never want another woman to go through.
    The third thing that happened is that after that 
experience, I began sharing my story a little bit more. And I 
was invited to become an online counselor for women who were 
struggling with abortion issues. And I started getting e-mails 
from women over and over again, a 16-year-old girl was the 
first one, and she said, ``I had an abortion yesterday, and 
they want me to go to school tomorrow and pretend everything is 
OK. I feel like dying.'' Over the years, there have been 
thousands of similar e-mails. Since then, when we started the 
``Silent No More Awareness Campaign,'' I have spent hours and 
hours and hours with thousands of women and men as they weep 
and grieve for their children.
    Now, I'm a little confused when we talk about this issue 
and we say that there is no support that women have any 
problems, because the reality is, is that while the research 
says nobody has problems; I'm spending hours and hours 
counseling these women they say don't exist.
    Thank you.
    [The prepared statement of Ms. Forney follows:]

      Prepared Statement of Georgette Forney, President, National 
             Organization of Episcopalians for Life (NOEL)
    Mr. Chairman, good afternoon, my name is Georgette Forney, I am the 
President of the NOEL, a life-affirming ministry in the worldwide 
Anglican Communion and I live in Sewickley, Pennsylvania. I am humbled 
to come before you and share my testimony.
    As I prepared my remarks, I realized that if I had been invited to 
speak ten years ago, I would have done so in support of a woman's right 
to choose. However, some things have happened that have changed my 
opinion. I would like to tell you what they are.
    First you need to know on October 4, 1976, when I was sixteen years 
old, I had an abortion in Detroit, Michigan. Afterwards, I went to my 
sister's house to recover because my parents didn't know about my 
pregnancy. That night as I lay in bed, I cried until I fell asleep. As 
I dressed the next morning, I was struggling to make sense of the day 
before, and it hit me ``I'll pretend yesterday never happened.'' And 
that's how I lived for nineteen years, in total denial.
    Then, in 1994, I was with a small group of women, and we were 
sharing our struggles with one another. One young woman expressed how 
she had been struggling to bond with her newborn son. She said she had 
an abortion in college and felt it was why she couldn't bond with her 
baby. She said she was going through abortion recovery counseling. I 
told her I had an abortion when I was 16, and it was no big deal. I 
said she simply needed to get over it.
    About six months later something strange happened, which forced me 
to recall that conversation. I was in my basement cleaning out boxes, 
and I found my yearbook from my junior year in high school. I picked it 
up and thought I'd take a quick stroll down memory lane.
    But something strange happened. Instead of opening the book and 
seeing the kids' faces, I felt my baby in my arms. I knew instantly it 
was my child that I had aborted. I knew she was a little girl. I could 
feel her little bum in my right hand and her back and neck in my left. 
And I knew that I had missed out on parenting a wonderful person, who 
would have brought a lot of joy into my life.
    For the first time in nineteen years, as I felt my baby's presence 
in my arms I realized the full impact of my abortion. And I began to 
weep. As I wept I remembered the conversation from six months earlier 
and I immediately called that woman. I was crying, and I said I needed 
help. She came over immediately and sat with me while I wept and began 
grieving for my aborted baby.
    That day I started a journey that has changed my life. Like my 
friend, I too attended an abortion recovery program. As I went through 
the program I began to understand what forgiveness and repentance is 
all about. For the first time I knew that God loved me and that through 
Jesus' death and resurrection, He forgave me, and I was able to forgive 
myself. I also understood that my child was in Heaven with God, and she 
forgave me too.
    During the abortion recovery program, they encourage you to recall 
different aspects of the abortion experience to help you heal. One of 
the strongest memories I have is of driving to the clinic and thinking: 
``This feels wrong, but because it's legal it must be okay.'' I share 
this with you because it's important for you to know that millions of 
people, especially young people trust you to make laws that protect 
us--sometimes even from ourselves.
    A second thing that caused me to change my opinion about abortion 
was having to explain to my eight-year-old daughter what abortion was. 
I had written out my story after going through the counseling, and I 
put a copy of it in my Bible. Not long after that my daughter was 
playing church and went to my Bible for some Scripture references. She 
found my testimony and read it. The next night we were at a restaurant 
having dinner and she asked me if I was married when I was 16. I said, 
``No, why?'' She asked if I was pregnant when I was 16? I put down my 
fork, said a prayer and replied, ``Yes.'' She then asked, ``Where is 
the baby?''
    Trying to explain to an 8-year-old what abortion is and why I had 
one was extremely difficult. After some discussion, I said it was bed 
time, and she said, ``Okay, but let me make sure I understand. You were 
pregnant when you were 16, and you killed your baby?'' I had to look 
her in the eye and answer, ``Yes.'' The look of fear and disappointment 
in her eyes is something I will never forget.
    After my daughter learned of my abortion, I started sharing my 
story publicly--and took the job as Executive Director of NOEL. Early 
in my tenure, I was asked to do on-line counseling for women who had 
had abortions. I began getting e-mails from women and girls who wrote 
hours after their abortions, or years later. Each e-mail expressed 
pain, and regret. Over the course of the three years I did it, I 
received over a thousand e-mails. I'll never forget the first e-mail I 
received from a girl who was 16. She had had the abortion on Saturday 
and Sunday night she e-mailed saying ``I can't go to school tomorrow 
and pretend everything is fine, I feel like dying.'' Others wrote 
things like: ``I just saw a diaper commercial and I can't stop 
crying.'' I got e-mails from women worldwide who shared their abortion 
pain and how their lives were a mess. They wanted help; they wanted to 
know they weren't the only one hurting. They always expressed relief to 
know help was available and they weren't alone in their pain.
    And that is why I have so radically changed my opinion about 
abortion and a woman's right to choose. What I have learned from 
personal experience--and from thousands of other women--is that 
abortion does not solve problems; abortion just creates different 
problems. I cannot tell you how many women I have sat with as they cry 
and mourn for their babies. As their pain is released, they begin to 
see how it has affected their lives. It is so sad. And it is why I say: 
Women may have the right to choose abortion, but I know with everything 
in me, abortion is not right for women.
    These experiences made me realize while abortion is wrong because 
of our babies die, abortion is also wrong for women. And I knew that 
women who have been there, and done that, needed to speak up and share 
the truth about abortion. To help the public understand that abortion 
hurts women more than it helps them, and to let women who are hurting 
know that help is available. So, I co-founded the National Silent No 
More Awareness Campaign in partnership with Janet Morana from Priests 
for Life to do just that.
    Since developing the campaign, I have learned even more about 
abortion. There are a few things I'd like to quickly point out:
    First, many women are forced or coerced into have an abortion. 
Jennifer O'Neill, the Silent No More Awareness Celebrity Spokeswoman, 
and well-known actress, who starred in the movie ``Summer of '42,'' was 
forced by her fiance to abort the baby she wanted. He told her that he 
would sue for custody of her older daughter if she didn't abort their 
child. Recently, a woman e-mailed me and shared her story, which 
included the fact that her boyfriend took her at gunpoint to the clinic 
for the abortion. Coercion is a common theme heard in women's 
testimonies.
    Second, many women experience physical complications after 
abortion, and women still die from legal abortion.
    In 1998 Denise Doe (not her real name) left a Louisiana clinic with 
a 2-inch gash across her cervix and an infection so severe it sent her 
into a coma for 14 days. For the next six months, she could not even 
use the bathroom--she had to rely on a colostomy bag. An emergency 
hysterectomy at a nearby hospital ultimately saved her life.
    Lou Anne Herron wasn't so lucky. Her 1998 abortion in Phoenix left 
her bleeding and unattended in a recovery room while Dr. John Biskind 
ate his lunch. Dr. Biskind then left the clinic while Ms. Herron 
screamed for help. When an administrator finally called 911--three 
hours later--the administrator asked emergency workers not to use their 
sirens and to come in through a side entrance. They did--but Ms. Herron 
had bled to death already. She left behind two children.
    In February 2002, 25-year-old Diana Lopez died at a Los Angeles 
clinic because the staff failed to follow established protocols before 
and after the abortion. If they had followed protocols, they would have 
realized she was not a good candidate for abortion because of blood 
pressure problems, and afterwards when her uterus was punctured during 
the abortion they should have called for an ambulance.
    In September 2003, Holly Peterson died from using RU-486.
    Third, please know I am not claiming that every woman will express 
regret her abortion--as I said at the beginning of my story, for 19 
years I denied my abortion and therefore denied any feelings about it. 
Many women are where I was but what I have found since getting involved 
is that there is a sub-culture in our society that is dealing with the 
pain of abortion. There are 15 books published on this issue and at 
least twenty-one national abortion recovery programs.
    Those who support abortion will say that at the most, 5-10 percent 
of women have emotional problems after abortion (which equals about 
75,000-130,000 women a year). So I ask, would it not make sense to 
develop some sort of screening procedure to identify women who may have 
severe reactions to abortion and protect them?
    Last year when we started the Silent No More Awareness Campaign, a 
pro-abortion professor from a California college wrote an article about 
the campaign. She cited research that disproves any claim that women 
suffer emotionally after abortion and suggested that: ``Ms. Forney was 
probably un-stable before her abortion.'' As I read the article--I was 
amazed that this professor would write such a thing--she didn't even 
know me. It was my daughter's response that put the issue into 
perspective for me. She said, ``Mom, while they are talking about 
research that says women aren't hurting, you're working seven days a 
week counseling the women they say don't exist.''
    Finally, I would note that the Alan Guttmacher Institute believes 
43 percent of women under the age of 45 have had abortions. Therefore, 
we are all around you. We are everywhere, and our pain affects your 
lives.
    I would like to close with some quotes from women who have spoken 
at the campaign events here in Washington to help you see how our pain 
affects us and spills out to those around us.
    Joyce said, ``I was a crazy woman with a mask on. To everyone I 
looked like I had it together. My husband will tell you differently, my 
children will tell you differently. The warning label of abortion 
should read `Caution: abortion can result in years of grief, physical 
and emotional pain, mood swings, eating disorders, low self-esteem, 
health and relationship problems with your spouse and children.' ''
    Jennifer said, ``I knew in my heart of hearts that I had done 
something radically wrong. That I had left a piece of me on that 
table.''
    Olivia said, ``I was never told about the pain that I would feel 
when the vacuum machine was turned on as it sucked my baby from my 
body.''
    Ann said, ``I became emotionally numb, I tried to kill myself three 
times.''
    Janine said, ``I represent everyone that thinks `I'm fine.' But 
every time that you hear something about abortion your stomach turns 
just a little bit to let you know that you're not fine.''
    Sylvia said, ``Feeling my baby burning in my womb--cannot be 
forgotten. I don't know exactly how long it took for my baby to burn to 
death or how long labor lasted. The memory for me is not in hours and 
days but in sounds and feelings frozen in time. The haunting screams of 
the others in the room, crying out for release as they labored to give 
birth to death. The panicked cries of my own body as my baby was 
delivered dead, as planned. The tears I cried as I lay with my baby are 
the tears that have continued for 28 years.''
    Karen said, ``Immediately after the abortion, nothing mattered to 
me, school, my life. I had very low self-esteem. It was nine years 
after that first abortion just three years after the second, that I 
began to realize that all the years of substance abuse, low self 
esteem, suicidal tendencies, and self hatred began after that first 
abortion.''
    For 31 years we've debated the humanity of the baby versus a 
women's right to choose--but I believe it's time to quit with the 
politics of abortion and admit that we have conducted a 31 year 
experiment on women. Did you know that one of the most common medical 
procedures done on women every year has never been properly researched 
or studied? Why not? Why can we not agree women's health issues are 
more important than the politics of abortion? Why can we not fund an 
in-depth, long-term study on the impact of abortion on women? States 
are not even required to report the number of abortions performed 
annually. Let us at least make that a requirement.
    Since December 2001, there have been 6 articles published in 
leading medical journals that indicate a significant correlation 
between abortion and later emotional distress. These studies and 
articles should support the need for more discussion and further 
research about the emotional aftermath of abortion.

  1.  Higher Rates of Long Term Clinical Depression--``Depression and 
        unintended pregnancy in the National Longitudinal Survey of 
        Youth: a cohort study,'' British Medical Journal, 324: 151-152. 
        This study from December 2001 indicates that women who abort a 
        first pregnancy are at greater risk of subsequent long term 
        clinical depression compared to women who carry an unintended 
        first pregnancy to term. An average of eight years after 
        abortion, married women were 138 percent more likely to be at 
        high risk of clinical depression compared to similar women who 
        carried their unintended first pregnancies to term.

  2.  More Mental Health Problems--``State-funded abortions vs. 
        deliveries: A comparison of outpatient mental health claims 
        over five years.'' American Journal of Orthopsychiatry, 2002, 
        Vol. 72, No. 1, 141-152. In this record-based study of 173,000 
        California women, women were 63 percent more likely to receive 
        mental care within 90 days of an abortion compared to delivery. 
        In addition, significantly higher rates of subsequent mental 
        health treatment persisted over the entire four years of data 
        examined. Abortion was most strongly associated with subsequent 
        treatments for neurotic depression, bipolar disorder, 
        adjustment reactions, and schizophrenic disorders.

  3.  Increased Substance Abuse--``History of induced abortion in 
        relation to substance use during pregnancies carried to term.'' 
        American Journal of Obstetrics and Gynecology. December 2002; 
        187(5). This study indicates that women with a prior history of 
        abortion are twice as likely to use alcohol, five times more 
        likely to use illicit drugs, and ten times more likely to use 
        marijuana during the first pregnancy they carry to term 
        compared to other women delivering their first pregnancies.

  4.  Problem Bonding with Future Children--``The quality of care 
        giving environment and child development outcomes associated 
        with maternal history of abortion using the NLSY data.'' 
        Journal of Child Psychology and Psychiatry. 2002; 43(6):743-
        757. ``The results of our study showed that among first-born 
        children, maternal history of abortion was associated with 
        lower emotional support in the home among children ages one to 
        four, and more behavioral problems among five-to nine-year-
        olds,'' said Dr. Priscilla Coleman, a professor at Bowling 
        Green State University and the lead author of the study. ``This 
        held true even after controlling for maternal age, education, 
        family income, the number of children in the home and maternal 
        depression.''

  5.  Higher Risk of Depression--An article published in the Medical 
        Science Monitor, May 2003 noted the author's summary as 
        follows; ``After controlling for several socio-demographic 
        factors, women whose first pregnancies ended in abortion were 
        65 percent more likely to score in the `high-risk' range for 
        clinical depression than women whose first pregnancies resulted 
        in a birth.''

  6.  Need for Psychiatric Hospitalization--The Canadian Medical 
        Association Journal also published an article in May 2003, 
        which explored the link between abortion and increased rates of 
        psychiatric hospitalization. It found that women who abort a 
        pregnancy are 2.6 times more likely to require psychiatric 
        hospitalization in the year after abortion than women who 
        experience and unexpected pregnancy and carried to term.

    Women have been at the center of a 31 year social experiment, and 
we should unapologetically insist on mandatory reporting of abortion 
complications for the sake of women's health, and in the interest of 
preventing a public health crisis.
    I realize this hearing is informative in nature, but as you 
consider what you have heard today, please set aside any pre-conceived 
notions and ask yourself this: Is abortion a choice I want a woman that 
I care about to make? Do I want my daughters dealing with the grief 
that I have heard about today? Do I want my nieces dealing with the 
mourning that Georgette went through? Do I want my employees dealing 
with the shame and the pain that I have learned about? And if abortion 
is not good enough for the women you care about, then it is not good 
enough for any woman. I believe Women Deserve Better than abortion 
because abortion hurts women.
    Thank you.

    Senator Brownback. Thank you for that testimony.
    Ms. Jenkins, thank you for joining us today.

   STATEMENT OF MICHAELENE JENKINS, EXECUTIVE DIRECTOR, LIFE 
                        RESOURCE NETWORK

    Ms. Jenkins. Thank you.
    Thank you, Mr. Chairman. Good afternoon. My name is 
Michaelene Jenkins. I'm the Executive Director of Life Resource 
Network. I live in San Diego, California. I thank you for the 
opportunity to testify today.
    Women's issues, women's right, and human rights have always 
been a passion of mine. As a teenager, I assumed that legalized 
abortion was necessary for women to attain their educational 
and career goals. So it's not surprising that when I became 
pregnant at 18, I thought about having an abortion. I also 
thought about adoption. But when I told my boyfriend, he said 
if I didn't have an abortion, that he'd kick me out. I turned 
to my employer for advice, but she agreed that abortion was the 
only logical option, and offered to arrange one for me.
    My experience at the abortion clinic was painful and 
humiliating. Although the young women awaiting their abortions 
were anxious and tearful, the clinic staff was cold and aloof. 
I met briefly with a counselor, who characterized my eight-week 
pregnancy as a mass of cells and the product of conception.
    When the abortion provider entered my procedure room, I 
started to panic, I started to have second thoughts, and I 
asked her assistant if I could have a few minutes. But the 
abortion provider yelled, ``Shut her up,'' and started the 
suction machine. It was not an empowering experience. I felt 
violated and betrayed.
    The promised solution, really the only option that was 
presented to me, wasn't the end of my nightmare, but only the 
beginning. Because of how I had viewed abortion, I was 
completely unprepared for the emotional fallout afterwards. I 
soon found myself in a cycle of self-destructive behavior that 
included an eating disorder. Desperate for a fresh start, I 
broke up with my boyfriend, quit my job, and moved from 
Minnesota to Hawaii.
    While I was in Hawaii, in an attempt to make sense of what 
was going on, I educated myself about fetal development, and I 
was shocked to learn that, at 8 weeks, there was a tiny, but 
fairly formed child, human being, about a half-inch, that did 
have a head and eyes and legs and arms. I sank even deeper into 
depression and self-hatred as I realized that I had literally 
paid someone to end the life of my child. This continued for 
years until suicidal thoughts began to overwhelm me and I 
sought assistance.
    With the help of counselors and the support of friends, the 
time of self-condemnation and self-punishment came to an end, 
and it allowed me to enter into a healthy grieving process. 
Throughout that process, I also became aware of the impact my 
choice had on others around me. Although I have repeatedly 
assured my parents that I knew they would have been supportive 
if I had chosen to carry the child to term, they continue to 
tell me that they feel responsible for the death of their 
grandchild. When I first told my sister, she was very upset and 
said she didn't want to know. She didn't want to know about 
this niece or nephew that was missing.
    My oldest son found out quite young, and he still struggles 
with the reality of the loss of his sibling and also how his 
mom could have done this. My 8-year-old doesn't know yet. And 
right now I find that the most upsetting, to know that he will 
have to deal with the pain that I have inflicted upon him.
    In addition to coping with the fallout my abortion has 
caused family members, there still are painful times for me. 
Healing doesn't mean forgetting. Mother's Day, in particular, 
is very difficult for me. It's a day that, as I celebrate the 
joy that I have with my living children, I ache for the child 
that I destroyed.
    At one time, I thought that my abortion experience was 
unique. But over the years, I've found that it isn't. There's 
mounting evidence, both anecdotally and in published studies 
that women suffer emotionally and physically after an abortion. 
But since abortion is often held hostage to politics and 
special interest groups, in my opinion there are too few 
reliable studies that have been done. Abortion continues to be 
an unchecked and unstudied experiment on American women.
    It has been 19 years since my abortion, and a lot has 
changed in this country. But not much has changed for women 
experiencing an untimely pregnancy. They still often face 
unsupportive partners and employers, and they're unaware of the 
community resources available to them. They undergo abortion, 
not so much as a choice, but out of desperation or as a last 
resort. And although some women are able to move on from that 
abortion, many are left with physical or emotional scars that 
negatively affect their lives for years and sometimes decades.
    In all the noise that surrounds abortion, women are often 
forgotten. I think it's time to stop that noise and start 
listening to women who have experienced abortion. I'm very 
grateful that today you've taken the time to do that. And I 
encourage you to continue steps to understand the impact that 
abortion has on women.
    Thank you very much.
    [The prepared statement of Ms. Jenkins follows:]

     Prepared Statement of Michaelene Jenkins, Executive Director, 
                         Life Resource Network
    Mr. Chairman, good afternoon; my name is Michaelene Jenkins, I am 
Executive Director of the Life Resource Network, and I live in San 
Diego, California. I thank you for the opportunity to testify before 
this Committee today.
    Women's issues, women's rights and human rights have always been a 
passion of mine. As a teenager I assumed that legalized abortion was 
necessary for women to attain their educational and career goals. So, 
it's not surprising that when I became pregnant at 18 I thought about 
having an abortion. I also considered adoption, but when I told my 
boyfriend, he said he would kick me out if I didn't have an abortion. I 
turned to my employer for advice. She agreed that abortion was the only 
logical option and offered to arrange one for me.
    My experience at the abortion clinic was painful and humiliating. 
Although the young women awaiting their abortions were anxious and 
tearful, the clinic staff was cold and aloof. I met briefly with a 
``counselor'' who characterized my 8-week pregnancy as a ``couple of 
cells'' and the ``products of conception.''
    When the abortion provider entered my procedure room, I began to 
have second thoughts and asked her assistant if I could have a few 
minutes. The doctor yelled ``shut her up'' and started the suction 
machine. It was not an empowering experience. I felt violated and 
betrayed.
    The promised solution--really the only option presented to me--
wasn't the end of my nightmare, but only the beginning. I was 
completely unprepared for the emotional fallout after the abortion.
    I soon found myself in a cycle of self-destructive behavior that 
included an eating disorder. Desperate for a fresh start, I broke up 
with my boyfriend, quit my job, and moved from Minnesota to Hawaii.
    While living in Hawaii I educated myself about fetal development. I 
was shocked to learn that an 8-week embryo is at least a half-inch long 
with a head, arms and legs, a beating heart and functioning brain. I 
sank even deeper into depression and self-hatred as I realized that I 
had destroyed my own child. This continued for the next few years until 
I sought assistance when suicidal thoughts began to overwhelm me.
    With the help of counselors and supportive friends the time of 
self-condemnation and self-punishment came to an end allowing me to 
enter into a healthy grieving process. In addition to grieving the loss 
of my child, I slowly became aware of the impact my choice had on other 
members of my family.
    Although I have repeatedly assured my parents that I never doubted 
their support and assistance if I had decided to carry the baby to 
term, they continue to believe that somehow they failed me and that 
they are partly responsible for the death of their grandchild. When I 
first told my sister she cried and said she wished she didn't know 
about the niece or nephew that is missing. My oldest son found out 
quite young and still struggles with the loss of a sibling and the 
reality that his mother was the cause of the loss. My youngest son who 
is 8 hasn't been told yet, and it breaks my heart that he will have to 
deal with a loss that I inflicted.
    In addition to coping with the fallout the abortion has caused in 
my family there are still times that are painful for me. After all, 
healing doesn't mean forgetting. Mother's Day is particularly 
difficult. As motherhood is celebrated I experience great joy in regard 
to my living children at the same time aching for the child that I 
destroyed.
    At one time I thought that my abortion experience was unique, but 
over the years I have found that it is not. There is mounting 
evidence--both anecdotal and in published studies--that women suffer 
emotionally after an abortion. But since abortion is held hostage to 
politics and special interest groups there are too few reliable studies 
that have been done. Abortion continues to be an unchecked and 
unstudied experiment on American women.
    It has been nineteen years since my abortion. Although much has 
changed in nineteen years, not much has changed for women experiencing 
an untimely pregnancy. They still face unsupportive partners and 
employers and are often unaware of the community resources available to 
them. They undergo abortion not so much out of choice, but out of 
desperation or as a last resort.
    Although some women are able to move on from their abortion, many 
are left with physical or emotional scars that negatively affect their 
lives for years and sometimes decades.
    In all the noise surrounding abortion, women are often forgotten. 
It is time to stop the noise and start listening to women who have 
experienced abortion. I am grateful that you have taken the time to 
listen and I urge you to continue to take steps to understand the 
impact abortion has on women.

    Senator Brownback. Thank you, Ms. Jenkins.
    Rev. Dr. Smith-Withers, thank you for joining us today.

 STATEMENT OF REVEREND DR. ROSELYN SMITH-WITHERS, D. MIN., CO-
CONVENER, CLERGY ADVISORY COMMITTEE OF THE RELIGIOUS COALITION 
  FOR REPRODUCTIVE CHOICE (RCRC), AND FOUNDER AND PASTOR, THE 
                        PAVILION OF GOD

    Rev. Smith-Withers. Good afternoon. First, I'd like to 
thank you for the opportunity to present testimony today on the 
important issue of the impact of abortion on the lives of 
women.
    I am Rev. Dr. Roselyn Smith-Withers, Co-Convenor of the 
Clergy Advisory Committee of the Religious Coalition for 
Reproductive Choice, RCRC. The Religious Coalition for 
Reproductive Choice was founded in 1973. It is a national 
nonprofit education and advocacy organization whose members are 
national bodies from 15 denominations and faith traditions, 
with officials positions in support of reproductive choice. 
These denominations include the Episcopal Church, Presbyterian 
Church USA, United Church of Christ, United Methodist Church, 
Unitarian Universalist Association, and Reform and Conservative 
Judaism.
    As an ordained Baptist clergy person and clergy counselor 
trained in the RCRC model of counseling called ``All Options 
Clergy Counseling,'' I have counseled many women with 
unintended and unwanted pregnancies over the last 15 years. My 
goal in counseling is to help women discern what is right and 
best for them and their family, and to help them come to an 
understanding that what they believe is consistent with their 
faith and their conscience.
    I believe that God has called me to a ministry that 
includes compassion for all of God's children through all 
phases of their experience. I believe that God speaks to women 
and enables them to make decisions for themselves. I believe 
that when we do not agree or understand the challenges that a 
woman is facing, we can be absolutely certain that God 
understands, loves them, and is with them.
    I believe that we should support women facing the challenge 
of an unplanned or unwanted pregnancy as nonjudgmentally and as 
compassionately as possible, trusting that they have the moral 
authority to make decisions that are healthy, helpful, good, 
and of God.
    I counseled a woman of faith a few years ago who was 
suffering from remorse and sadness. She told me that she had an 
abortion when she was 16. She talked about how judgmental 
people had been, and how she felt ashamed and alone. She told 
me that her family consisted of just her mother and herself, 
and that her mother was mentally ill. She talked about the 
challenges she faced daily caring for her mother, that, at 16, 
she didn't believe that she could have cared for her mother and 
survived a pregnancy.
    She then told me about the compassion of her physician who 
performed her abortion. She thanked me for listening, not 
judging her. Just listening. She said, and I quote, ``I believe 
God hears me, but I wish I had had someone to talk with then, 
someone who would listen to me. I believe I did the right 
thing, but I needed someone to hear me and care. Being alone 
can make you feel ashamed and so sad,'' end quote.
    The attempt to stigmatize abortion and the women who have 
had abortions is so far-ranging that it is considered a 
campaign. Medical groups that call themselves pro-life and 
advocate against abortion, and even contraception, are active 
and growing. The campaign is also strongest in Christian 
denominations in which groups or caucuses have formed to 
reverse traditional church policies of compassion and care that 
support reproductive choice as an act of conscience.
    My experience has been, and research has shown, that while 
some women may experience regret, sadness, or guilt after an 
abortion, the overwhelming responses are resolve, peace, and a 
feeling of having coped responsibly and morally with a very 
difficult situation.
    To insist that women who have an abortion are devastated as 
a result, simplifies the complex nature of each woman's 
feelings. Even worse, such pronouncements induce guilt, 
undermine a woman's self-respect and confidence that God can 
and does speak directly to her, and convinces a woman that she 
must be forgiven even though abortion might be the most 
responsible, moral, honest, life-affirming decision that she 
can make at that time.
    As a counselor who has talked to many with unintended 
pregnancies, I believe that women deserve our respect for 
making a difficult and complex decision. As their experiences 
indicate, it may not be the abortion that causes harm, but the 
negativity and lack of compassion of others.
    [The prepared statement of Rev. Smith-Withers follows:]

  Prepared Statement of Reverend Dr. Roselyn Smith-Withers, D. Min., 
 Co-Convener, Clergy Advisory Committee of the Religious Coalition for 
Reproductive Choice (RCRC), and Founder and Pastor, The Pavilion of God
    Thank you for the opportunity to present testimony today on the 
important issue of the impact of abortion on women. I am Reverend Dr. 
Roselyn Smith-Withers, Co-Convener of the Clergy Advisory Committee of 
the Religious Coalition for Reproductive Choice (RCRC) and founder and 
pastor of The Pavilion of God in Washington DC. The Religious Coalition 
for Reproductive Choice (RCRC), founded in 1973, is a national non-
profit education and advocacy organization whose members are national 
bodies from 15 denominations and faith traditions with official 
positions in support of reproductive choice, including the Episcopal 
Church, Presbyterian Church (USA), United Church of Christ, United 
Methodist Church, Unitarian Universalist Association, and Reform and 
Conservative Judaism.
    As an ordained clergyperson and clergy counselor trained in the 
RCRC model of counseling called All Options Clergy Counseling, I have 
counseled many women over the last 15 years. Some women have spiritual 
and religious concerns as they consider their options. My goal in 
counseling is to help women discern what is right and best for them and 
their family and to help them come to an understanding that they 
believe is consistent with their faith and conscience. Women with an 
unintended or unplanned pregnancy have many different feelings and 
concerns as they consider their options and after they have decided on 
a course of action and taken that action. I tell women that there are 
no easy answers as to what to do, that they must weigh everything 
involved in this decision--whether they are prepared for parenthood, 
have the family and financial support they need, are physically and 
emotionally able to handle the challenges, and many other 
considerations that they know best. I assure them that, while a problem 
or unintended pregnancy can be devastating, it can also mark the 
beginning of a more mature life because it requires that they take 
charge of their own future. In my experience, women become stronger 
when they are able to make these most personal, morally complex 
decisions for themselves, without fear and without coercion. No woman 
chooses to be in a situation in which she must consider an abortion, 
but if that is the decision a woman has to make, I believe firmly that 
God is with her in that moment.
    Women, both unmarried and married, become pregnant unintentionally 
for various reasons, including rape and date rape, failed birth 
control, and lack of information about contraception and sexuality. 
Many of these women experience a point of low esteem, some even wanting 
to die. Later, they can come to understand that they can heal and that 
their faith can be part of that healing.
    Research has shown that, while some women may experience sensations 
of regret, sadness or guilt after an abortion, the overwhelming 
responses are relief and a feeling of having coped successfully with a 
difficult situation.\1\ Yet the idea persists that women must be guilt-
ridden by an abortion and that the decision will haunt them for the 
rest of their lives. There is an unfounded and unexamined presumption 
that a woman's conscience guides her not to have an abortion. In my 
experience as a counselor, I have more often seen women who are guided 
by their conscience and their sense of responsibility to have an 
abortion. Because abortion is so stigmatized, they do not express their 
true feelings and desires. The stigmatization of unplanned pregnancy 
and abortion can have a coercive effect, causing some women to continue 
a pregnancy that they prefer to terminate, with lifelong consequences 
to the woman and her family. Clergy who are trained in the All Options 
counseling model and who counsel women before and after abortions know 
that most women believe they have made a responsible decision.
---------------------------------------------------------------------------
    \1\ Adler, NE. et al., ``Psychological Factors in Abortion: A 
Review.'' American Psychologist, 1992, 47(10): 1194-1204.
---------------------------------------------------------------------------
    Research studies support what women know in their hearts: that 
women's emotional responses to legal abortion are largely positive. In 
1989, the American Psychological Association (APA) convened a panel of 
psychologists with extensive experience in this field to review the 
data. They reported that the studies with the most scientifically 
rigorous research designs consistently found no trace of ``post-
abortion syndrome'' and furthermore, that no such syndrome was 
scientifically or medically recognized. The panel concluded that 
``research with diverse samples, different measures of response, and 
different times of assessment have come to similar conclusions. The 
time of greatest distress is likely to be before the abortion. Severe 
negative reactions after abortions are rare and can best be understood 
in the framework of coping with normal life stress.'' \2\ Adler pointed 
out that despite the millions of women who have undergone the procedure 
since 1973, there has been no accompanying rise in mental illness. ``If 
severe reactions were common, there would be an epidemic of women 
seeking treatment,'' she said.\3\ In May 1990, a panel at the American 
Psychiatric Association conference argued that government restrictions 
on abortion are far more likely to cause women lasting harm than the 
procedure itself.
---------------------------------------------------------------------------
    \2\ American Psychological Association. ``APA Research Review Finds 
No Evidence of `Post-Abortion Syndrome' But Research Studies on 
Psychological Effects of Abortion Inconclusive.'' Press Release, 
January 18, 1989.
    \3\ New studies find abortions pose little danger to women. Time 
magazine, March 27, 1989.
---------------------------------------------------------------------------
    To insist, as do groups that oppose abortion in all cases, that 
women who have an abortion are devastated as a result simplifies the 
complex nature of each woman's feelings. Even worse, such 
pronouncements induce and nurture guilt, undermine women's self-
respect, and convince women they must be forgiven for a sin, even 
though abortion might be the most responsible, moral decision.
    Religious women who have had abortions have very different feelings 
from those described by groups that oppose abortion. The book Abortion, 
My Choice, God's Grace, by Anne Eggebroten,\4\ tells the stories of 
women who have had abortions. Elise Randall, an evangelical Christian 
and graduate of Wheaton College, who had an unwanted pregnancy, said, 
``I was filled with resentment and afraid that I might take out my 
frustrations on the child in ways that would do lasting damage.'' She 
and her husband concluded that abortion ``was the most responsible 
alternative for us at this time. The immediate result was an 
overwhelming sense of relief. Now we were free to deal with the 
existing problems in our lives instead of being crushed by new ones . . 
. Only God knows what might have been, but I like to think that our 
decision was . . . based on responsibility and discipleship.''
---------------------------------------------------------------------------
    \4\ Eggebroten, Anne. Abortion, My Choice, God's Grace. New 
Paradigm Books, Pasadena, California. 1994.
---------------------------------------------------------------------------
    Christine Wilson, an active member of a Presbyterian church in 
suburban Baltimore and attorney, wife and mother of two grown children, 
became pregnant when she was 16 after having sex for the first time 
with her boyfriend. At first naive and then later embarrassed and 
afraid, she did not tell her parents until she was five months 
pregnant. Because abortion was illegal at that time, her father took 
her to England for the abortion. For many years she suffered in silence 
from guilt and emotional turmoil. Now, she says, ``If I had (legal) 
access in 1969, I know it would not have taken 25 years to attain the 
peace of mind I have today.''
    The attempt to stigmatize abortion and the women who have had 
abortions is so far-ranging that it can be considered a campaign. 
Medical groups calling themselves pro-life, whose purpose is to promote 
misinformation about abortion, are active and growing; these groups use 
the professional credibility of doctors to promote a political agenda 
that includes opposition to emergency contraception and insurance 
coverage of contraceptives.\5\ The campaign is also strong in some 
Christian denominations, in which groups or caucuses have formed to 
reverse traditional church policies that support reproductive choice as 
an act of conscience. The website of the National Organization of 
Episcopalians for Life (NOEL),\6\ for example, which calls itself a 
``para-church organization within the Anglican tradition,'' states that 
the group seeks to change ``the growing `culture of death' in America 
and the Episcopal Church,'' in contrast to the resolution adopted by 
the church's 1994 General Convention that ``Human life, therefore, 
should be initiated only advisedly and in full accord with this 
understanding of the power to conceive and give birth that is bestowed 
by God.'' The National Silent No More Awareness Campaign of NOEL and 
Priests for Life \7\ works to make abortion ``unthinkable'' while the 
Episcopal Church, in another statement adopted by its official body, 
urges there be ``special care to see that individual conscience is 
respected and that the responsibility of individuals to reach informed 
decisions in this matter is acknowledged and honored.''
---------------------------------------------------------------------------
    \5\ Miller, Patricia. Special Report on Ideology in Medicine. 
Faith&Choices. Newsletter of the Religious Coalition for Reproductive 
Choice. Fall 2003.
    \6\ www.noelforlife.org, March 1, 2004.
    \7\ www.silentnomoreawareness.org, March 1, 2004.
---------------------------------------------------------------------------
    It is important and heartening to all who care about women's health 
and lives to know that the consensus in the medical and scientific 
communities is that most women who have abortions experience little or 
no psychological harm. The claim that abortion is harmful is not borne 
out by the scientific literature or by personal experiences of those 
who counsel women in non-judgmental, supportive modalities such as All 
Options Clergy Counseling. In fact, scientific data shows that the risk 
for severe psychological problems after abortion is low and comparable 
to that of giving birth.
    Yet while there is extensive political and media discussion of the 
supposed harm caused by abortion, the negative effects of unintended 
childbearing are basically ignored. Yet they have enormous consequences 
for women, children and families, and society at large. A recent study 
documents the negative effects of unintended childbearing on both the 
mother and her family.\8\ Women who have had unwanted births sustain 
lower quality relationship with all of their children, affecting the 
children's development, self-esteem, personality, educational and 
occupational attainment, and mental health and future marital 
relationships. Mothers with unwanted births are substantially more 
depressed and less happy than mothers with wanted births. The negative 
effects of unintended and unwanted childbearing persist across the 
course of life, with mothers with unwanted births having lower quality 
relationships with their children from late adolescence throughout 
early adulthood.
---------------------------------------------------------------------------
    \8\ Barber, Jennifer S. et al., (1999). ``Unwanted Childbearing, 
Health, and Mother-Child Relationships.'' Journal of Health and Social 
Behavior, 40(3), 231-257.
---------------------------------------------------------------------------
    In conclusion, as a clergy counselor I believe that women such as 
Elise Randall and Christine Wilson, whose stories were recounted in 
Eggebroten's book, deserve respect for making a complex decision. As 
their experiences indicate, it is not the abortion that can cause harm 
but the negative attitudes of others, including those who oppose 
abortion for personal, political, ideological or other reasons. Women 
who have an unintended pregnancy and decide to have an abortion need 
our compassion and support. To help women and families, we should work 
together to reduce unintended pregnancies through increased access to 
family planning and emergency contraception, comprehensive sexuality 
education, quality health care, and compassionate counseling.

    Senator Brownback. Thank you Reverend Doctor, I appreciate 
your testimony.
    Thank you all very much on what, as I said, is a difficult 
topic.
    We'll run the clock at 10 minutes, Senator Lautenberg, so 
we can bounce back and forth. If you will Ms. Forney, how many 
women have you counseled, either personally or over the 
Internet?
    Mrs. Forney. You know, I've never kept an actual number 
count, but I was trying to estimate that the other day, because 
we--and I was thinking back to the fact that, on average, when 
I was doing online counseling, we would get about five e-mails 
a week. So 52 weeks out of the year, 250 over 3 years, 750 
approximately. And we also have over 1500 women now on our 
Silent No More list, women who have registered at our Website 
so that they regret their abortion and they want to be silent 
no more. So I've personally dealt with maybe around 2200 or so, 
as well as phone calls and referrals.
    Senator Brownback. In counseling of over 2,000 women, are 
there any common experiences that you see, either 
psychologically or physically?
    Mrs. Forney. It's hard to boil it down. I would say some 
common things are that when they were younger and they made the 
decision they did, they realize now that there wasn't enough 
information that they wished that they had taken more time to 
think through their decision, that the predicament of their 
situation didn't direct them. In a lot of the cases, I have to 
admit, I was surprised about how much coercion happens.
    Two weeks ago, I got an e-mail from a woman who was asking 
me for help, and actually wanted information to find a clinic 
because she had been taken at gunpoint by her boyfriend to the 
clinic, and she was crying out for help.
    So coercion is one thing that was a lot more common than I 
expected, but just a sense in which they wished that somebody 
would have given them some more background information.
    And then I think the other thing I hear a lot is, ``I wish 
that I knew earlier that there was help available, because I've 
lived in my own personal hell for so long.''
    Senator Brownback. Psychologically.
    Mrs. Forney. Yes. They're looking for other women to 
connect with to say, ``What you're feeling is normal,'' that 
there are a lot of us out there that are hurting. But, see, the 
problem is, is that part of what we hear is, ``It was just an 
abortion, and it was a blob of tissue, and it's no big deal. 
Get over it.'' But the other side also says, ``You should be 
really guilty.'' So we get these two conflicting messages, and 
what we're looking for is somebody to say, ``If you're hurting, 
there's help, and there's no judgment, and we've been there, 
done that, and we can relate.''
    Senator Brownback. And that's what we're trying to focus on 
here, is not the issue about the abortion, but what should we 
be providing to women. What kind of information do they say 
they would like to have had that they are now experiencing 
something that they wish they'd a known about ahead of time?
    Mrs. Forney. That's a great question, because a lot of it 
has to do, not with things that we typically think of, like 
fetal development, because I think we're--as a Nation, we're 
very well versed in fetal development, or better than we were 
30 years ago. But it has to do more with, ``I wish somebody 
would have told me what I was going to have to deal with when I 
wanted children, but I struggled to bond with those children 
because they reminded me of what I had lost. I wish somebody 
would have talked to me about this grief and this loneliness 
that I feel, that I should have five children and now I only 
have three children or two children.'' Or, what I've heard more 
often than I care to tell you is that, ``I wish somebody would 
have told me about the physical complications that are 
possible, because I thought, well, OK, now isn't the best time 
to have a child, but I can have one later. I had no idea that 
my abortion was going to lead to a full hysterectomy and that 
my only chance for a child is now gone.'' I have heard that, 
sir, more than you want to know.
    Senator Brownback. Ms. Jenkins, how many women have you 
talked with or counseled with that have had an abortion?
    Ms. Jenkins. I actually do not engage in counseling, per 
se. I do a lot of my outreach on college campuses, and my 
interaction are with the students who come there, and 
occasionally with others. I've spoken to hundreds, whether they 
be the mother or the father of the child, or I see more often 
now even siblings of children who have been aborted, who then 
express their feelings on this issue to me.
    Senator Brownback. What kind of information are they 
requesting that they don't feel like they have access to?
    Ms. Jenkins. What I'm hearing from students right now is, 
they feel a sense of frustration and anger that after 30 years 
we don't have some sort of conclusive, factual studies to point 
out what are the potential physical ramifications of abortion, 
as well as the emotional ramifications. It does not matter 
where a person stands on the issue. That is one thing that I am 
hearing, that is there is just a need for that.
    Also, they express that it seems like the pregnancy options 
are so overly simplified in the way we deal with them in public 
discourse, that they also feel they're at a disservice for 
that. If they find themselves in the crisis, they feel there is 
a lack of adequate information about what their choice will 
mean 1 year, 5 years, 10 years, twenty years down the line.
    Senator Brownback. Have you talked with women who have had 
abortions that were not counseled about the impact of the 
abortion 1 year, 5 years, 10 years, twenty years down the line?
    Ms. Jenkins. Most of the women that I speak to feel that 
they either were given no information or they were given 
inadequate information. Also, a frustration that they have, 
that I have personally, as well, is that because of the lack of 
conclusive information that we have right now, there'll be one 
study that says perhaps you have an increased risk for this or 
that, maybe another one comes out that seemingly contradicts 
that, which raises all these questions of what should I be 
aware of, what could I potentially be at risk for, so that my 
doctor can then know that information and hopefully, help me at 
that time.
    Senator Brownback. What kind of Federal research do we need 
to have for women to know the near-term and long-term impacts 
of abortion? What kind of research is missing?
    Ms. Jenkins. I think one fundamental that is missing right 
now is data. Over 30 years, and I think you mentioned we've had 
over 40 million abortions, and yet we have no national registry 
where we could have followed these women for 30 years and known 
what, if any, are the psychological ramifications. What 
percentage of women are predisposed to having that kind of a 
reaction? Perhaps we could do better counseling and screening 
for a woman beforehand. If she has these negative reactions, 
what is the best way that we can support her and bring her 
through that process. Also, with the physical ramifications, 
we've lost out, on 30 years of data and experience of women 
going through it. It's an experiment, as I look at it, on 
women.
    Certainly some sort of a way to collect data, that would 
obviously protect the privacy of women. But we do collect data 
on many other types of things and, therefore, are able to start 
to see if there is a problem. Do we need to research that more? 
And then certainly you have studies that would be--I mean, 
there has been all sorts of problems that have been suggested, 
different emotional and psychological problems. There have been 
studies that have indicated perhaps increased risk to different 
types of reproductive cancers. We see studies that have 
suggested perhaps a correlation between, miscarriage and 
abortion, or pelvic inflammatory disease and abortion, things 
that impact women's ability to bear children, impact their 
ability to be parents, and we just do not have enough 
information right now. I don't have enough information.
    Senator Brownback. Mrs. Forney, what information is missing 
to provide women with better information when they go in for an 
abortion, about its near-term and long-term consequences, 
either physical or psychological?
    Mrs. Forney. I think that, first of all, I'd like to say 
that the information that needs to be gathered and presented to 
women before they're in a crisis trying to make a decision. I 
think that this should be information--that we should be 
presenting information as a general knowledge that we give to 
young women so that they understand before they get into 
crisis. Because the one thing I've learned with dealing with 
young women is that when they're in a crisis, they're not 
processing quite the same. None of us do when we're in a 
crisis.
    So I would say one thing we want to do is make sure 
whatever we get is published and publicized before we need the 
information, so it just becomes part of our healthcare 
knowledge.
    The kind of things that we need to better understand are, 
what are the immediate complications and what are the long-term 
complications. I question whether or not the level of 
infertility problems that are happening so often amongst our 
friends, are they related to pelvic inflammatory disease? Are 
they related to other issues that sometimes occur during an 
abortion?
    Senator Brownback. Rev. Dr. Smith, let me ask you, is there 
any hole in the information that you would like to know about 
on the impact of abortion on women, psychologically or 
physically?
    Rev. Smith-Withers. What I have experienced, and many of my 
colleagues have, is that the support of clergy and other 
counselors that sit with women and help them recognize their 
personal power to make choice makes a tremendous difference. 
Women, as these women are indicating, want to make their own 
choices. And our Clergy Advisory Committee certainly supports 
women who choose to move forward with their pregnancy, and 
support women who choose to terminate a pregnancy. Women want 
the right to choose their own life and their destiny. They want 
information about their bodies, they want information about 
options in their life, whether it is planning education, 
whether it is healthcare options, and to be supported in all of 
those processes in their life. Women do feel, as these women 
are indicating, very unsupported in the process, and that's why 
our advising and helping ministers learn to support women and 
validate their own understanding of their faith, learning about 
their bodies, learning to face the challenges that they have at 
that moment.
    Many women confuse the issue of abortion with the many 
issues that preexist. Many women come after having been 
sexually abused. And so they're looking at not just the issue 
of being pregnant, but the sexual abuse.
    So it isn't a simplistic or simple issue. It is a complex 
one, and we need those who are trained and prepared to be 
compassionate and support women in all aspects of these issues.
    Senator Brownback. Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman.
    Your personal experiences are interesting, Mrs. Forney and 
Ms. Jenkins and--but the question that arises for me--and you 
heard me challenge what the jurisdiction of this Committee is, 
so I--my questions of you--and I feel badly that each of you 
had the kind of emotional reaction to something that you 
consciously decided to do. I assume, Ms. Jenkins, that you were 
not railroaded into this. No one held a gun at your head to go 
ahead and do this. Is that correct?
    Ms. Jenkins. That is correct.
    Senator Lautenberg. And you obviously had very rude people 
taking care of you. But you'll forgive me if I don't get 
connection between the research and the rude people--the doctor 
who said, ``Tell her to shut up.'' Terrible behavior. But what 
does that--what has that to do with the kind of research we do?
    Mr. Chairman, it's very interesting for me, the subject of 
understanding what happens to people. What are the emotional 
impacts of a soldier who's gone to combat? Have you studied 
that in this Subcommittee at all?
    Senator Brownback. I think Armed Services had, and needs to 
study it some more.
    Senator Lautenberg. Well, but you could do that, 
apparently, in this Committee, find out what happens to a young 
man who's 18, 19--I did it--and goes into the Army during 
wartime, and see what the 30-year impact is on that person and 
see--go visit our veterans clinics and find out.
    Do you ever counsel people with an understanding that if 
they continue with this pregnancy and that child is addicted 
because the mother's an addict, that you're going to provide 
help to bring that child along and provide for their well-
being?
    Mrs. Forney. Sir, usually the women that contact me are not 
pregnant, but they've had the abortion already. So I can't 
directly respond to that. But I can say that last month when we 
at the Supreme Court building, there was a woman who was 
addicted to cocaine, alcohol, and methamphetamines. And the 
doctors and everybody told her that they didn't want her, and 
she shouldn't bring a child into the world that might be 
addicted to those drugs. But she stood there and talked about 
the fact that this was the only child she was ever able to 
conceive. And while she wishes that she had never used the 
drugs, and she wasn't asking for her behavior to be excused, 
she was expressing great regret over the fact that now she is 
childless, and she's all alone in the world.
    Senator Lautenberg. Yes. Well, that, again--there are many 
tragic stories, and I know that these--this is never an easy 
decision. Never. I don't care who it is.
    And I just wonder, in your organization, Mrs. Forney, do 
you provide a full range of advice on how to deal with a 
pregnancy, or do you only see women who have come in after 
they've had an abortion?
    Mrs. Forney. Well, that's a great question, NOEL is working 
with churches to provide help prior to an abortion choice. In 
other words, what NOEL is trying to do--not only do we work 
with women after they've had an abortion, but we've actually 
developed a new project called the ``Anglican Angel Project,'' 
in which we work with churches to train the members of the 
church to come alongside women so that when they're pregnant 
and they don't know what the choices are, there are people in 
the congregation to help them look at their choices, to 
understand the resources that are in the community, and to 
really meet their needs. Because we know that so many women say 
to us, ``I'm not having an abortion. I didn't have my abortion 
because I wanted one. I felt I had no other choice.'' It's a 
very common comment.
    Senator Lautenberg. Yes.
    Mrs. Forney. Might I also add, sir, that Mrs. Jenkins has 
created a wonderful resource in the San Diego County, which is 
something that when I travel and speak I'm always looking to 
see reproduced.
    Senator Lautenberg. Thank you.
    Ms. Jenkins, do you counsel women who are in the process of 
decisionmaking about abortions, or no? Or are they pregnant 
women who have not yet had an abortion or haven't made that 
decision?
    Ms. Jenkins. The organization that I direct is involved in 
education. It's involved in public awareness. My understanding 
for coming to testify here today was to talk about what is the 
impact of abortions on women, and is there a need for 
additional study? And that's where I'm focusing. Certainly if 
we are to provide women, or whoever with a full range of 
options, there does need to be a full understanding of what 
those options are and how they impact their life. We all know 
that there is an impact if you choose adoption, there's an 
impact if you choose to carry to term and parent the child, 
there's an impact if you have an abortion. But there's a lack 
of information on how abortion impacts women----
    Senator Lautenberg. Do you----
    Ms. Jenkins.--and that's the point.
    Senator Lautenberg.--do you also provide information to 
women who come in seeking advice that one of those choices 
might be to have an abortion? If life is so unendurable for 
this person, and she can't continue, for all kinds of reasons--
that she's sick or she's got other children who are--who need 
attention and--do you ever say to them, ``Well, look, 
obviously, one of the choices is there's something now as 
simple as a pill that can be taken the next day''? Would you 
ever give a woman that kind of information to help them through 
this crisis?
    Ms. Jenkins. We are respectful of women. And part of that 
means that we don't deny them access to full information. So, 
obviously, all options and avenues are discussed with them.
    The particular frustration that brings me here today is 
that we do not have the type of information that a woman 
deserves to know when it deals with how abortion will impact 
her, either----
    Senator Lautenberg. Yes.
    Ms. Jenkins.--immediately or in the future.
    Senator Lautenberg. Do you ever find women who made a 
decision--I think Rev. Smith-Withers had an abortion and went 
on to have a healthy, productive life, with children coming on 
later on--and saying, ``That was a decision. I made it this 
time in my life when things were so bleak that there was no way 
that I could care for a child.'' Do you ever interview women 
and--I mean, would you suggest that we do research on women who 
have had abortions and how life appears to them? Because the 
numbers are staggering for the number of women who have had 
abortions. One out of five women, I think, in America today, 
have had an abortion. The number is huge. Is that kind of 
counseling worth doing, Dr. Smith-Withers? What do you think?
    Rev. Smith-Withers. Oh, absolutely. The overwhelming 
experience that I have had is that women who have received 
counseling, that have been responsible and supportive, move on 
to have very, very productive lives. Generally, if there are 
other issues--and there are other issues involved--those are 
the things that women need to be supported with, as well. We 
presume that, because it's coincident with the abortion, that 
the abortion is the problem. The abortion is a challenge and is 
a problem, but that is not the only issue. And our job is to 
look at the women as a total person and help that woman manage 
the other issues in her life.
    Women move on after having abortions, they have other 
children, they are productive in their work life and with their 
families. We want to help women make wise choices, choices that 
they understand help them to be whole people and people of 
faith.
    Senator Lautenberg. Mrs. Forney, just, in short form, if 
you could, do you--how do you get your people to come to your 
clinics?
    Mrs. Forney. We have--the campaign, the Silent No More 
Awareness Campaign, we have gatherings, and they actually 
participate in a gathering, sharing their testimony. And how do 
we get them? Basically, we are in communication with 
organizations that do counseling, and we let them know that the 
campaign is available. There are also billboards out there in 
which we just have our message out there, and women contact us, 
so that if they're hurting, the number for help is available. 
So we're not walking around saying, ``Did you have an abortion, 
and are you guilty?''
    Senator Lautenberg. Yes. But your only contact--I want to 
be sure about this--is with women who already have had a 
procedure, an abortion.
    Mrs. Forney. For the most part. That is the main thrust of 
the ``Silent No More Awareness Campaign,'' are women who have 
had abortions. But really what we're saying is, is that there 
are problems--there are health issues and there are emotional 
issues--but we don't have the data. We need more information so 
we are making an informed choice.
    Senator Lautenberg. More information about----
    Mrs. Forney. The long-term effects of abortion on women's 
health and the----
    Senator Lautenberg. Would you want to compare that to women 
who have had an abortion and have gone on to healthy lives----
    Mrs. Forney. But, sir----
    Senator Lautenberg.--producing a family, a childhood 
practically----
    Mrs. Forney. Everything was fine--for 19 years, I would 
have been one of those women.
    Senator Lautenberg. Yes, but----
    Mrs. Forney. And that's----
    Senator Lautenberg.--but it----
    Mrs. Forney.--the point.
    Senator Lautenberg.--didn't turn out that way for you. But 
there are other women, I'm sure, who it----
    Mrs. Forney. Then let's study it.
    Senator Lautenberg.--turned out differently, because an 
escapade before marriage might just be a terribly traumatic 
thing, but yet I'm sure lots of women have gone on from there 
and said, ``Now that's behind me, and I'm going to build a 
healthy, positive life for me and my children and my 
husband''----
    Rev. Smith-Withers. See, and with support that woman can 
learn from that experience and use that experience to inform 
her in her other life choices. It is important that we help 
women be empowered and to use their own ability to make 
decisions and make moral and healthy decisions for themselves, 
and not decide, for them, that they are not being, one, God-
fearing or God-aware in the process of making their decision, 
that they are not being moral people in the process of making 
their decision. And it minimizes their ability, and it also 
devalues them as human beings.
    Ms. Jenkins. May I----
    Senator Lautenberg. Thank you----
    Ms. Jenkins.--may I answer?
    Senator Lautenberg.--Mr. Chairman.
    My time is up.
    Senator Brownback. Please, go ahead.
    Ms. Jenkins. OK. I just wanted to comment that I did 
mention, in my testimony, that there are women who have the 
abortion and move on from there, and do not appear to have the 
types of problems that I was describing. And certainly if we're 
going to study the issue, it's obvious that we would be looking 
at the whole population of women who have made not only the 
choice to abort, but the choice to carry their children to 
term, et cetera; otherwise, you're not going to have any type 
of valid statistical data to know if there--if a woman is, 
indeed, at an increased risk when she undergoes the abortion.
    I just wanted to comment that, to me that's an obvious 
thing, that if you're going to look at something 
scientifically, you have to look at all of that to have any 
type of valid data.
    Senator Brownback. It's a good point.
    Dr. Reverend, have you counseled any women who have 
regretted having an abortion?
    Rev. Smith-Withers. Absolutely. Fortunately, being clergy, 
women come to us in positions of any pain. And certainly 
abortion would be one of the reasons. And the regret often is 
attached to not having the support when they needed it.
    The woman that I described was one who had a great deal of 
pain, and the pain was because she was not supported; not just 
in terms of the abortion, but the issues that she had with her 
mother and that she didn't have the compassion that she needed. 
She didn't hear people who understood that she believed in God 
and that she really was acting in a God-directed manner. When 
those issues were resolved, and really the resolution was an 
opportunity to talk with someone who would support her, love 
her, and really listen to her. And she was able to resolve it. 
The regret was just not being in a compassionate, supportive 
environment; and that was resolved.
    Senator Brownback. Have any women come to you and said they 
regretted having children?
    Rev. Smith-Withers. Oh, absolutely. We live with a great 
deal of diversity, in terms of experience. But what I have 
learned is that it's never a very simple matter. Women and 
men--who regret one thing are often conflicted with a number of 
issues. And that is not simplistic or simple. And so what I try 
to do is listen and invite people to consider the other 
elements that are involved in their life.
    Senator Brownback. Ms. Forney, have you met any women who 
have regretted having an abortion?
    Mrs. Forney. Well, all the women I deal with regret having 
an abortion. I've never met any women that regret having 
children.
    Senator Brownback. Ms. Jenkins, what about you? The same 
question, Have you run into women that have regretted having an 
abortion?
    Ms. Jenkins. Yes, I've run into many women who have.
    Senator Brownback. What about that have regretted having a 
child?
    Ms. Jenkins. I have not heard that expressed to me, but I 
certainly have had women express the difficulties of single-
parenting that can ensue. I think something with abortion is 
its permanence, you can't go back and undo it, and that's 
something that I hear a lot from women who have made that 
choice. They can't undo that. And as they age, as I am, you see 
it a little bit differently, and you think about how old your 
child is every year, which, even with the women who have 
expressed to me that they feel at peace and they've always been 
OK with their abortion experience, and it appears that they 
are, but they also do express to me that they can recount how 
old their child would be right now. And there's always a loss 
surrounding that.
    Senator Brownback. This is what's been puzzling to me as 
I've delved into this more. I'm pro-life. I want to admit that 
to everybody. But what's been puzzling to me about it is that, 
as I've dug into this more and more from the woman's 
perspective, is that you constantly run into this, ``Oh, gosh, 
I wish I hadn't done it, I was pressured and was pushed, I 
didn't know,'' I mean, just a litany of issues here and there.
    And I also want to say, a lot of times--Dr. Reverend, I 
think you had a good point about--a lot of people are looking 
not for judgmental, but, ``Just listen to me, just hear me.'' 
And I've tried to do that, and, regrettably, I'm sure at times 
I haven't done it very well. But I constantly run into this, 
``I wish I hadn't, I wish I'd have know, what about this, what 
about that?'' And I rarely, if ever, run into a woman saying, 
``I wish I hadn't had my children.''
    Rev. Smith-Withers. Could I----
    Senator Brownback. And so you look at that, and you're 
saying--there must be some data points we're missing here, and 
that we've had this vast amount of abortions in the country, so 
this is a very common experience known by all in the nation, 
and it's impacting every family in the country in some way or 
another, and we just don't have the data points or the research 
as to this long-term--so that people that choose to have this, 
where we have legal abortion in the United States, really know 
1 year, 5 years, 10 years, 20 years down the line, this is the 
likely--you have this percentage of people that are going to 
have an increased intensity of experience psychologically, 
physical impacts. And that's--that we really owe that to the 
women of the country to know those data points and that 
information. I'd love to hear your response.
    Rev. Smith-Withers. You know, I think it's so important 
that you share that. One of the things that I think--I'm in a 
unique position, and all clergy--most clergy that's often in 
that position, and certainly physicians, where women share 
their fears, their doubts, their regrets. And I've also heard 
the opposite, where women who have had children and they regret 
having had children. It's a challenging thing to hear. They 
love their children, they're committed to their children, they 
love their family, and they're very involved and committed to 
their family life. But what women say to clergy and to their 
physicians are those private places. They regret not knowing 
options and not knowing choices and--because their lives are 
affected also.
    Women who had great visions for themselves are often 
diminished completely by having children--and not having the 
ability to have birth control, or to know when they--that there 
are options, in terms of unwanted pregnancies, these are things 
that are very, very challenging to hear. And women don't say 
those things when they are not in a place where they feel they 
will not be judged.
    We're all in process. They love their children, but they 
often regret having had them. And I've heard that, and it's a 
very challenging thing to hear, but we need to hear it and 
understand that our stories are not simple, they're not--there 
is not just one story.
    We're a complex community. And women cannot be seen in a 
monolithic manner at all. And we have to find ways to empower 
women to express their vision and their concerns for their 
lives. Many of the women--and I'm sure you know that many of 
the women who have children have had--they're victims of 
incest. And this is something we don't talk about. There are 
many women who hide in the shadow, who are rape victims, who 
are victims of incest, and they have those children, too, that 
they love and regret having had.
    Senator Brownback. Thank you all very much. Appreciate the 
panel. I think you've helped provide some insight to us. And 
thanks. It's a tough topic, and I do appreciate your coming 
forward.
    A vote's been called at 3:30. I think what we'll do is put 
in for a short recess here, and go over and vote, and then come 
right back. So we'll be in for a 10 to 15 minute recess, and 
then we'll come back with the second panel at that time.
    I'm sorry to have to do that to you, but the vote was 
called at 3:30, and it's a 15 minute roll call vote. So we will 
be in recess until 10 minutes to 4.
    [Recess.]
    Senator Brownback. I call the hearing back to order.
    Our second panel is Dr. Elizabeth Shadigian. She's a 
Medical Doctor and Researcher at the University of Michigan 
School of Medicine. Dr. Shadigian is the author of an 
Obstetrical and Gynecological Survey, and article titled ``Long 
Term Physical and Psychological Health Consequences of Induced 
Abortion: Review of the Evidence,'' brings to this Committee a 
great deal of research, experience, and knowledge of the impact 
that abortion has on women. Dr. Shadigian is the mother of 
three children, two girls and a boy.
    And we also have on the panel Dr. Nada Stotland, Medical 
Doctor, M.P.H., Professor of Psychiatry and Professor of 
Obstetrics and Gynecology at Rush Medical College. Dr. Stotland 
has been a practicing psychiatrist for a number of years, and 
is mother to four daughters.
    Let's, if we could, get somebody to close the door here so 
we don't have quite as much outside information coming in.
    Ladies, thank you both very much for joining us on a tough 
topic, but one we're trying to get at a basis of what 
information we do have.
    Dr. Shadigian, thank you for joining us, and the floor is 
yours.

       STATEMENT OF ELIZABETH SHADIGIAN, M.D., CLINICAL 
 ASSOCIATE PROFESSOR, DEPARTMENT OF OBSTETRICS AND GYNECOLOGY, 
                     UNIVERSITY OF MICHIGAN

    Dr. Shadigian. Thank you, Senator Brownback, for this 
opportunity to address the Subcommittee and the people here in 
this room. I really appreciate it.
    I am a Clinical Associate Professor of Obstetrics and 
Gynecology at the University of Michigan School of Medicine. 
I'm a practicing clinician, which means I see women for 
obstetrics and gynecology-type issues. I teach medical students 
and residents at the University of Michigan, and I also perform 
research. Not only do I do research on abortion complications, 
but I do research on gender issues in OB/GYN, and also violence 
against women.
    I'm not here to argue any pro-life or pro-choice kind of 
political issues, or about legalization or non-legalization of 
abortion. I'm here to talk about abortion complications.
    So I'm here as a medical expert advocating for science, for 
accuracy in available scientific evidence, and for the 
availability of this medical information to all women and men 
in America, and really all over the world.
    I recently co-authored a compilation of research articles 
called ``A Systematic Review,'' evaluating the long-term 
implications on women's health, both psychologically and 
physically, and it included all the things that were never 
included before. Usually we had research on what happened right 
after abortion, what kind of complications there were in the 
first 42 days. Instead, our research focused on what happens 
after those 42 days. Were there any positive or negative 
implications? Also, we also looked at big studies, of at least 
100 women each, in there.
    Approximately 25 percent of all pregnancies are terminated 
in the United States, and approximately--or at least 43 percent 
of women who are American undergo an abortion at some time in 
their lives. Therefore, if there's a small negative or positive 
effect of induced abortion on subsequent health, many women 
will be affected.
    My study concluded that there is an increased long-term 
risk of the following different kinds of diseases or 
situations: one, breast cancer; two, placenta previa; three, 
pre-term birth; and, four, maternal suicide.
    Our study also looked at other outcomes which were not 
associated with induced abortion, and those were subsequent 
spontaneous abortion or miscarriage, ectopic or tubal 
pregnancy, and infertility.
    In addition--and this is not included in our study, but 
just some background information--that the Center for Disease 
Control reports about one death for every 100,000 abortions, 
and many of the data about the safety of abortion on women's 
health is based on those numbers from the CDC. Instead, the 
number that is more likely is probably at least six per 
100,000, if you look at long-term effects plus short-term 
effects. This higher number is calculated using data from all 
50 states. Right now, CDC does not receive data from all 50 
states about maternal mortality around abortion, and it is not 
currently mandatory to do so. In addition, if we included 
material suicides, breast cancer deaths, and increased C-
section deaths due to these pre-term births and placenta 
previa, the numbers would be higher than CDC actually gets.
    One of the issues is around informed consent. Healthcare 
providers are obliged by law to inform patients of the benefits 
and risks of undergoing a treatment being pondered before the 
actual health decision is made. In the case of a woman deciding 
if she wants to continue the pregnancy she's experiencing, or 
to not continue it, women need as much accurate medical 
information as possible.
    Induced abortion is associated with an increased risk in 
breast cancer, placenta previa, pre-term birth, and maternal 
suicide, and maternal deaths from induced abortion are 
currently under-reported. However, first of all, these do need 
to appear on abortion consent forms. They currently do not, for 
most situations.
    I am part of the American College of Obstetricians and 
Gynecologists, which is a national organization group of OB/GYN 
doctors in the country. And the OB/GYNs, in their last 
compendium issue, which is just basically a compilation of all 
our official policies on how do we manage different kinds of 
medical problems and position statements, says, and I'm going 
to quote--that the American College of OB/GYNs, says, in 
quotes, ``Long-term risks sometimes attributed to surgical 
abortion include potential effects on reproductive function, 
cancer incidents, and psychological sequellae. However, the 
medical literature, when carefully evaluated, clearly 
demonstrates no significant negative impact on any of these 
factors with surgical abortion.''
    I'm a proud member and fellow of ACOG, but I am deeply 
troubled that ACOG makes assurances to their membership and to 
women everywhere claiming a lack of long-term health effects of 
induced abortion. Instead, ACOG should be insisting that these 
health effects appear on abortion consent forms.
    Why doesn't ACOG insist on long-term health consequences of 
induced abortion be included? I would like to shift our 
attention to the 1950s and 1960, and the early research on 
cigarette smoking and lung cancer and heart disease. Initially, 
studies didn't show a correlation, and then they did, and it 
was highly politicized. The American Medical Association came 
out and said there was no association between cigarette smoking 
and long-term health effects, and finally did reverse 
themselves on that.
    This has happened also with hormone replacement therapy. 
Recently, we all thought it was wonderful for women to get 
hormone-replacement therapy, and when we've done the larger, 
more-controlled studies, we found out, in fact, that it isn't a 
perfect panacea for every woman, and it's not good for their 
health sometimes.
    So I think it's important to understand that we are in a 
state of flux; in fact, there should be a morally neutral 
common ground between people of every kind of political 
sensibilities and different kinds of issues. If you believe in 
the moral status of a child inside the mother or not, that, in 
fact, we need to be worried about women's health in the long 
term. Because so many women have had abortions, we need to be 
able to study and follow them over their lifetimes. I need to 
know how to order mammograms for my patients.
    And if they have had an abortion, they may need more 
surveillance. Also, pre-term birth continues to go up and up in 
this country, and this has been linked to induced abortion. In 
fact, a history of an induced abortion raises pre-term birth 
rates, almost doubles them. So March of Dimes tries to talk 
about those things. We also have a higher and higher incidence 
every year of breast cancer and breast-cancer deaths.
    So I wanted to applaud the Subcommittee for taking on such 
a politically difficult topic in an effort to show women the 
respect they deserve by supplying them with accurate medical 
information and to hopefully continue a process where we can 
look at the scientific evidence to see how abortion may or may 
not affect different health issues for women.
    Thank you.
    [The prepared statement of Dr. Shadigian follows:]

Prepared Statement of Elizabeth M. Shadigian, M.D., Clinical Associate 
Professor of Obstetrics and Gynecology, University of Michigan Medical 
                                 School

 Reviewing the Medical Evidence: Long-Term Physical and Psychological 
                Health Consequences of Induced Abortion

Introduction
    Most of the medical literature since induced abortion was legalized 
has focused on short-term surgical complications, surgical technique 
improvement, and abortion provider training.
    Long-term complications had not been well studied as a whole, until 
now, due to politics--specifically, the belief that such studies would 
be used either to limit or expand access to abortion. The two 
commissioned studies that attempted to summarize the long-term 
consequences of induced abortion concluded that future work should be 
undertaken to research long-term effects.\1\
---------------------------------------------------------------------------
    \1\ Wynn M. and Wynn A., Some Consequences of Induced Abortion to 
Children Born Subsequently, London Foundation for Education and 
Research in Childbearing, 27 Walpole Street, London (1972); ``More on 
Koop's Study of Abortion,'' Family Planning Perspectives (1990), Vol. 
22 (1): 36-39.
---------------------------------------------------------------------------
    The political agenda of every researcher studying induced abortion 
is questioned more than in any other field of medical research. 
Conclusions are feared to be easily influenced by the author's beliefs 
about women's reproductive autonomy and the moral status of the unborn.
    Against this backdrop of politics is also a serious epidemiological 
concern: researchers can only observe the effects of women's 
reproductive choices, since women are not exposed to induced abortion 
by chance. Because investigators are deprived of the powerful tool of 
randomization to minimize bias in their findings, research must depend 
on such well-done observational studies. These studies depend on 
information from many countries and include legally mandated registers, 
hospital administrative data and clinic statistics, as well as 
voluntary reporting (or surveys) by abortion providers.\2\
---------------------------------------------------------------------------
    \2\ Thorp J.M., Hartmann K.E., Shadigian, E.M., ``Long-term 
Physical and Psychological Health Consequences of Induced Abortion: 
Review of the Evidence,'' Obstet. and Gynecol. Survey, 58(1), 2003.
---------------------------------------------------------------------------
    Approximately 25 percent of all pregnancies (between 1.2-1.6 
million per year) are terminated in the United States, so that if there 
is a small positive or negative effect of induced abortion on 
subsequent health, many women will be affected.\3\
---------------------------------------------------------------------------
    \3\ Supra note 1.
---------------------------------------------------------------------------
    A recent systematic review article critically assesses the 
epidemiological problems in studying the long-term consequences of 
abortion in more detail.\4\ It should be kept in mind that: (1) 
limitations exist with observational research; (2) potential bias in 
reporting by women with medical conditions has been raised and refuted; 
(3) an assumption has been made that abortion is a distinct biological 
event; (4) inconsistencies in choosing appropriate comparison groups 
exist; and (5) other possible confounding variables of studying 
abortion's effects over time also exist.
---------------------------------------------------------------------------
    \4\ Thorp et al., supra note 2.
---------------------------------------------------------------------------
    Nonetheless, given the above caveats, my research, which included 
individual studies with no less than 100 subjects each, concluded that 
a history of induced abortion is associated with an increased long-term 
(manifesting more than two months after the procedure) risk of:

  (1)  breast cancer

  (2)  placenta previa

  (3)  preterm birth and

  (4)  maternal suicide.
Outcomes Not Associated with Induced Abortion
    Induced abortion has been studied in relation to subsequent 
spontaneous abortion (miscarriage), ectopic pregnancy, and infertility. 
No studies have shown an association between induced abortion and later 
spontaneous abortion. An increase in ectopic or tubal pregnancies was 
seen in only two out of nine international studies on the topic, while 
only two out of seven articles addressing possible subsequent 
infertility showed any increased risk with induced abortion.\5\
---------------------------------------------------------------------------
    \5\ Id.
---------------------------------------------------------------------------
Outcomes Associated with Induced Abortion
1. Breast Cancer
    Based upon a review of the four previously published systematic 
reviews of the literature \6\ and relying on two independent meta-
analyses, (one published \7\ and one unpublished \8\), induced abortion 
causes an increased risk of breast cancer in two different ways.\9\ 
First, there is the loss of the protective effect of a first full-term 
pregnancy (``fftp''), due to the increased risk from delaying the fftp 
to a later time in a woman's life. Second, there is also an independent 
effect of increased breast cancer risk apart from the delay of fftp.
---------------------------------------------------------------------------
    \6\ Id.
    \7\ Brind J., Chinchilli V., Severs W., Summy-Long J., ``Induced 
Abortion as an Independent Risk Factor for Breast Cancer A 
Comprehensive Review and Meta-analysis, J Epidemiology Community Health 
1996; 50:481-496.
    \8\ Shadigian, E.M. and Wolf, F.M., Breast Cancer and Spontaneous 
and Induced Abortion: A Systematic Review and Meta-analysis'' (in 
review).
    \9\ Thorp et al., Supra note 2.
---------------------------------------------------------------------------
    The medical literature since the 1970s has shown that a full-term 
delivery early in one's reproductive life reduces the chance of 
subsequent breast cancer development.\10\ This is called ``the 
protective effect of a first full term pregnancy (fftp).'' This is 
illustrated in Figure 1 which uses the ``Gail Equation'' to predict the 
risk of breast cancer for an 18-year-old within a five-year period and 
also within a lifetime. The Gail Equation is used to help women in 
decision-making regarding breast cancer prevention measures.
---------------------------------------------------------------------------
    \10\ McMahon M., Cole B., Lin T., et al., ``Age at First Birth and 
Breast Cancer Risk,'' Bull World Health Organ. (1970); 43:209-21.
---------------------------------------------------------------------------
    In the first scenario, the 18 year-old decides to terminate the 
pregnancy and has her fftp at age 32, as compared to the 18 year-old in 
the second example who delivers at term. The individual risk of these 
women is then assessed when the risk of breast cancer peaks. As figure 
1 shows, having an abortion instead of a full-term pregnancy at age 18 
can almost double her five-year and lifetime risk of breast cancer at 
age 50, regardless of race.\11\
---------------------------------------------------------------------------
    \11\ Thorp et al., Supra note 2.
---------------------------------------------------------------------------
    An independent effect of increased breast cancer risk apart from 
the delay of first full-term pregnancy has been controversial. Four 
published review articles have been written. Two of the reviews found 
no association between induced abortion and breast cancer,\12\ while 
one paper found a ``small to non-significant effect.'' \13\ The sole 
published meta-analysis reported an odds-ratio (``OR'')\14\ for breast 
cancer of 1.3 (or 95% CI=1.2, 1.4) in women with a previous induced 
abortion.\15\ One yet unpublished independent meta-analysis found the 
OR=1.21 (95% CI=1.00, 1.45).\16\ Brind et al., used older studies and 
translated non-English ones. He did not exclude any studies and used a 
different statistical approach. The unpublished study used exclusion 
criteria and only English language studies. Another finding was that 
breast cancer is increased if the abortion is performed before a first 
full term pregnancy. Brind found an OR=1.4 (95% CI=1.2, 1.6), while the 
unpublished study showed an OR=1.27 (95% CI=1.09-1.47). The two meta-
analyses used different methodologies, but reported nearly equivalent 
results, which are statistically significant, and do show that induced 
abortion is a independent risk factor for breast cancer.
---------------------------------------------------------------------------
    \12\ Wingo P., Newsome K., Marks J., Calle E., Parker S., ``The 
Risk of Breast Cancer Following Spontaneous or Induced Abortion,'' 
Cancer Causes and Control (1997) 8, at pp 93-108; Bartholomew L., and 
Grimes D., ``The Alleged Association Between Induced Abortion and Risk 
of Breast Cancer: Biology or Bias?,'' Obstet. Gynecol. Survey 1998, 
Vol. 53(11) 708-714.
    \13\ Michels K., Willett W., ``Does Induced or Spontaneous Abortion 
Affect the Risk of Breast Cancer?'' Epidemiology 1996, Vol. 7(5) 521-
528.
    \14\ The odds ratio of an event is the ratio of the probability of 
the event occurring, to the probability that the event does not occur. 
An ``OR'' equal to 1 (OR=1) indicates that there is no association with 
the disease. An OR which is greater than 1 indicates a positive 
association with the disease. An odds ratio of less than 1 indicates a 
negative association. Similarly, a relative risk (or ``RR'') of greater 
than 1 is said to be a risk factor between an exposure and the end 
event. ``CI'' refers to the ``confidence interval.'' A confidence 
interval which is greater than 95 percent, where the numbers in 
question do not cross 1, is considered statistically significant and 
most likely not due to chance. In this paper only statistically 
significant numbers are quoted.
    \15\ Brind J., Chinchilli V., Severs W., Summy-Long J., ``Induced 
Abortion as an Independent Risk Factor for Breast Cancer A 
Comprehensive Review and Meta-analysis, J Epidemiology Community Health 
1996; 50:481-496.
    \16\ Shadigian, E.M. and Wolf, F.M., Breast Cancer and Spontaneous 
and Induced Abortion: A Systematic Review and Meta-analysis'' (in 
review).
---------------------------------------------------------------------------
    Some other findings from individual research papers included in my 
review concluded that the risk of breast cancer increases with induced 
abortion when: (a) the induced abortion precedes a first full term 
pregnancy;\17\ (b) the woman is a teen;\18\ (c) the woman is over the 
age of 30;\19\ (d) the pregnancy is terminated at more than 12 weeks 
gestation;\20\ or (e) the woman has a family history of breast 
cancer.\21\ One researcher (Daling) also reported, in her study, that 
all pregnant teens with a family history of breast cancer who aborted 
their first pregnancy developed breast cancer.\22\
---------------------------------------------------------------------------
    \17\ Brind et al., supra note 7; and Shadigian and Wolf, Id.
    \18\ Daling JR, Malone KE, Voigt LF, et al., Risk of breast cancer 
among young women: relationship to induced abortions. J Natl Cancer 
Inst. 1994;86:1584-92.
    \19\ Daling, et al., (1994) supra note 17.
    \20\ Melbye M., Wohlfahrt J., Olsen J.H. et al., ``Induced Abortion 
and the Risk of Breast Cancer,'' N Engl J Med. (1997); 336(2):81-5.
    \21\ Daling J.R., Brinton, L.A., Voigt L.F., et al., Risk of Breast 
Cancer Among White Women Following Induced Abortion,'' Am J Epidemiol. 
(1996); 144:373-80.
    \22\ Daling et al., (1994), supra note 17.
---------------------------------------------------------------------------
2. Placenta Previa
    ``Placenta previa'' is a medical condition of pregnancy where the 
placenta covers the cervix, making a cesarean section medically 
necessary to deliver the child. In general, this condition puts women 
at higher risk, not just because surgery (the c-section) is necessary, 
but also because blood loss is higher, and blood transfusions may be 
necessary. There is also a higher risk of hysterectomy (the loss of the 
uterus), and therefore the need for more extensive surgery.
    Three studies with over 100 subjects each were found examining 
induced abortion and placenta previa, as well as one meta-analysis. The 
three studies found a positive association, as did the meta-analysis. 
Induced abortion increased the risk of placenta previa by approximately 
50 percent.\23\
---------------------------------------------------------------------------
    \23\ Thorp et al., supra note 2.
---------------------------------------------------------------------------
3. Pre-Term Birth (``PTB'')
    Twenty-four studies explored associations between abortion and pre-
term birth or low birth weight (a surrogate marker for pre-term birth). 
Twelve studies found an association which almost doubled the risk of 
preterm birth. Moreover, seven of the twelve identified a ``dose 
response effect'' which means a higher risk for pre-term birth for 
women who have had more abortions.

        ``Also notable is the increased risk of very early deliveries 
        at 20-30 weeks (full-term is 40 weeks) after induced abortion, 
        first noted by Wright, Campbell, and Beazley in 1972. Seven 
        subsequent papers displayed this phenomenon of mid-pregnancy 
        PTB associated with induced abortion. This is especially 
        relevant as these infants are at high risk of death shortly 
        after birth (morbidity and mortality), and society expends many 
        resources to care for them in the intensive care unit as well 
        as for their long-term disabilities. Of particular note are the 
        three large cohort studies done in the 1990s, 20 to 30 years 
        after abortion's legalization. Each shows elevated risk and a 
        dose response effect. Because these studies were done so long 
        after legalization, one would assume that the stigma of 
        abortion that might contribute to under-reporting would have 
        waned.'' \24\
---------------------------------------------------------------------------
    \24\ Id. (Risk ratio elevation of 1.3 to 2.0)
---------------------------------------------------------------------------
4. Suicide
    Two studies have shown increased rates of suicide after induced 
abortion, one from Finland \25\ and one from the United States.\26\ The 
Finnish study (by Gissler et al.) reported an OR=3.1 (95% CI=1.6, 6.0) 
when women choosing induced abortion were compared to women in the 
general population. The odds ratio increased to 6.0 when women choosing 
induced abortion were compared to women completing a pregnancy. The 
American study (by Reardon et al.) reported recently that suicide 
RR=2.5 (95% CI=1.1, 5.7) was more common after induced abortion and 
that deaths from all causes were also increased RR=1.6 (95% CI= 1.3, 
7.0).
---------------------------------------------------------------------------
    \25\ Gissler M., Hemminki E., Lonnqvist J., ``Suicides After 
Pregnancy in Finland,'' 1987-94: register linkage study. BMJ 1996; 
313:1431-1434.
    \26\ Reardon D.C., Ney P.G., Sheuren F., Cougle J., Coleman P.K., 
and Strahan T.W.. ``Deaths Associated With Pregnancy Outcome: A Linkage 
Based Study of Low Income Women,' Southern Med. J. 2002;95 (8): 834-41.
---------------------------------------------------------------------------
    In addition, self-harm is more common in women with induced 
abortion.\27\ In England psychiatric hospital admissions because of 
suicide attempts are three times more likely for women after induced 
abortion, but not before.\28\
---------------------------------------------------------------------------
    \27\ Gilcrest A, Hannaford P, Frank P et al., Termination of 
pregnancy and psychiatric morbidity. Br J Psychiatry 1995;167:243-248.
    \28\ Morgan C, Evans M, Peters J et al.Suicides after pregnancy 
(letter). BMJ 1997;314:902.
---------------------------------------------------------------------------
Maternal Mortality
    There is no mandatory reporting of abortion complications in the 
U.S., including maternal death. The Centers for Disease Control (CDC) 
began abortion surveillance in 1969. However, the time lag in CDC 
notification is greater than 12 months for half of all maternal 
deaths.\29\ Maternal deaths are grossly underreported, with 19 
previously unreported deaths associated with abortions having been 
identified from 1979-1986.\30\ The CDC quotes approximately one 
maternal death for every 100,000 abortions officially, which is death 
between the time of the procedure and 42 days later.\31\ Therefore, 
statements made regarding the physical safety of abortion are based 
upon incomplete and inaccurate data.
---------------------------------------------------------------------------
    \29\ Lawson H.W., Frye A., Atrash H.K., Smith J.C., Shulman, H.B., 
Ramich, M.''Abortion Mortality, United States, 1972 through 1987,''Am J 
Obstet Gynecol (171),5,(1994).
    \30\ Atrash, H., Strauss, L., Kendrick, J., Skjeldestad, F., and 
Ahn, Y., ``The Relation between induced abortion and ectopic 
pregnancy,'' Obstet. and Gynecol. 1997;89:512-18.
    \31\ Centers for Disease Control, MMWR (Morbidity and Mortality 
Weekly Report): Abortion Surveillance in the United States, 1989-
present.
---------------------------------------------------------------------------
    Many women are at much higher risk of death immediately after an 
induced abortion: for example, black women and minorities have 2.5 
times the chance of dying, and abortions performed at greater than 16 
weeks gestation have 15 times the risk of maternal mortality as 
compared to abortions at less than 12 weeks. Also, women over 40 years 
old, as compared to teens, have three times the chance of dying.\32\
---------------------------------------------------------------------------
    \32\ Lawson (1994), supra note 28.
---------------------------------------------------------------------------
    Late maternal mortality, which includes deaths occurring after the 
first 42 days following abortion are not reflected in CDC numbers, nor 
are data from all 50 states, because reporting is not currently 
mandatory. To accurately account for late maternal mortality, maternal 
suicides and homicides, breast cancer deaths and increased caesarian 
section deaths from placenta previa and pre-term birth would also be 
included with other abortion-related mortality.
Informed Consent
    Health care providers are obliged by law to inform patients of the 
benefits and risks of the treatment being pondered before a medical 
decision is made. In the case of a woman deciding to terminate a 
pregnancy, or undergoing any surgery or significant medical 
intervention, informed consent should be as accurate as possible.
    Induced abortion is associated with an increase in breast cancer, 
placenta previa, pre-term birth and maternal suicide. Maternal deaths 
from induced abortion are currently underreported to the Centers for 
Disease Control. These risks should appear on consent forms for induced 
abortion, but currently are not.
American College of Obstetricians and Gynecologists (ACOG)
    In the most recent edition of medical opinions set forth by the 
American College of Obstetricians and Gynecologists (Compendium of 
Selected Publications, 2004, Practice Bulletin #26), ACOG inexplicably 
states:

    ``Long-term risks sometimes attributed to surgical abortion include 
potential effects on reproductive functions, cancer incidence, and 
psychological sequelae. However, the medical literature, when carefully 
evaluated, clearly demonstrates no significant negative impact on any 
of these factors with surgical abortion.'' \33\ (Italics added for 
emphasis)
---------------------------------------------------------------------------
    \33\ Compendium of Selected Publications, the American College of 
Obstetricians and Gynecologists, 2004, Practice Bulletin #26.

    I am a proud member and fellow of ACOG. Because of groups like ACOG 
American women enjoy some of the best health, and health care, in the 
world. However, I am deeply troubled that ACOG makes assurances to 
their membership, and to women everywhere, claiming a lack of long-term 
health consequences of induced abortion. Instead, ACOG should be 
insisting that these long-term health consequences appear on abortion 
consent forms.
    Why doesn't ACOG insist that long-term health consequences of 
induced abortion be included?
    ACOG seems to claim that they have adequately evaluated the medical 
literature, but they do not consider our study nor the many older 
studies we evaluated. This situation is akin to the early studies that 
indicated that cigarette smoking was linked to heart disease and lung 
cancer in the 1950s and 1960s. Eventually, larger, improved studies 
were funded that could thoroughly assess the health effects of smoking. 
We are at a similar crossroads for women today--just as we were 
regarding smoking and long-term health effects in the 1950s and 1960s.
Conclusion
    A clear and overwhelming need exists to study a large group of 
women with unintended pregnancies who choose--and do not choose--
abortion. If done properly, a dramatic advance in knowledge will be 
afforded to women and their health care providers--regardless of the 
study's outcome. A commitment to such long-term research concerning the 
health effects of abortion including maternal mortality would seem to 
be the morally neutral common ground upon which both sides of the 
abortion/choice debate could agree.
    In the meantime, there is enough medical evidence to inform women 
about the long-term health consequences of induced abortion, 
specifically breast cancer, placenta previa, pre-term birth, and 
maternal suicide. They should also be informed of the inadequate manner 
in which maternal death is reported to the government, thus grossly 
underestimating the risk of death from abortion.
    I applaud this subcommittee for taking on such a politically 
difficult topic in an effort to show women the respect they deserve by 
supplying them with accurate medical information.
Figure 1 \34\
---------------------------------------------------------------------------
    \34\ Thorp et al., supra note 2
---------------------------------------------------------------------------
    Scenario: All Four Women Are Pregnant At Age 18; #1 & #3 abort 
their first pregnancy and deliver at 40 weeks in their next pregnancy 
at age 32. #2 and #4 continue their first pregnancy and deliver at 40 
weeks at age 18.

------------------------------------------------------------------------
      Gail Variable             #1              #2          #3      #4
------------------------------------------------------------------------
Race                          Caucasian,      Caucasian,   Black   Black
                               Non-Black       Non-Black
------------------------------------------------------------------------
Age                                   50              50      50      50
------------------------------------------------------------------------
Menarche                              12              12      12      12
------------------------------------------------------------------------
Age 1st live birth                    32              18      32      18
------------------------------------------------------------------------
Number of first-degree                 0               0       0       0
 relatives with breast
 cancer
------------------------------------------------------------------------
Number of previous                     0               0       0       0
 breast biopsies
------------------------------------------------------------------------
5-year breast cancer                1.3%            0.7%    0.8%    0.4%
 risk
------------------------------------------------------------------------
Lifetime breast cancer             12.1%            6.5%    6.7%    3.6%
 risk
------------------------------------------------------------------------

                               Attachment
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               
                               


    Senator Brownback. Thank you. Thank you for traveling here. 
We appreciate your being here.
    Dr. Stotland?

   STATEMENT OF NADA L. STOTLAND, M.D., M.P.H., PROFESSOR OF 
          PSYCHIATRY AND PROFESSOR OF OBSTETRICS AND 
                GYNECOLOGY, RUSH MEDICAL COLLEGE

    Dr. Stotland. Thank you for allowing me to address you 
today.
    My name is Nada Logan Stotland. I'm a practicing 
psychiatrist with an M.D., as well a master's degree in public 
health, and, as you said, a professor of psychiatry and OB/GYN 
at Rush Medical College, in Chicago. My expertise is in the 
psychiatric aspects of women's reproductive health. I'm 
currently the Secretary of the American Psychiatric 
Association, whose official policy is that the option of 
terminating a pregnancy is important for women's mental health. 
And I'll underscore what Dr. Shadigian said about what ACOG has 
to say about abortion and women's health.
    But my original focus was on birth. I'm the mother of four 
daughters, and I have an enchanting little granddaughter. But 
let me talk--turn to science.
    Most of us remember C. Everett Koop, who was an anti-
abortion advocate, became the American Surgeon General, and 
held hearings, as we're having today, to learn from people and 
organizations on all sides of the debate. I was assigned to 
review the literature and represent the American Psychiatric 
Association. Dr. Koop ultimately testified that, ``The 
psychological effects of abortion are minuscule from a public 
health standpoint.''
    As Dr. Koop concluded, there is no credible evidence that 
induced abortion is a significant cause of mental illness. My 
written testimony references the rigorous studies supporting 
that assertion. But, as you've heard, there are assertions to 
the contrary, and let me explain why they don't stand up to 
scientific scrutiny.
    There are ten overriding reasons. One is, as was referred 
to in the earlier panel, self-selected populations, not 
populations in general. Second, they confuse emotions with 
psychiatric illness. Sadness, grief, and regret do follow some 
abortions. These are not diseases. There's no evidence that 
women regret abortions more than they regret other decisions. 
Probably most of the 50 percent of couples who divorce regret 
having gotten married, but we are working to promote marriage, 
not to make it difficult. There are intervening variables that 
influence how someone comes out many years later, as people 
learn after they get married.
    First, they do not distinguish women who terminate unwanted 
pregnancies from those who have to terminated wanted 
pregnancies because of serious threats to their own health or 
fetal malformation.
    Second, they overlook the fact that only pregnant women 
have abortions. They don't compare the after-effects of 
abortion with the after-effects of childbirth. Over 10 percent 
of women who have babies in the United States develop 
postpartum depression, which is a real mental illness. A 
smaller percentage of women develop postpartum psychosis. Some 
of these women, as we know, tragically kill themselves or their 
children. A far lower percentage of women have clinical 
depression following abortion, and most of these women were 
depressed before their abortion.
    Third, they failed to account for the reasons women 
conceive unwanted pregnancies and decide to have abortions, 
preexisting mental illnesses that make it more difficult for 
women to refuse sex or contracept effectively, poverty, 
violence, incest, lack of education, abandonment, as we heard 
earlier, and overwhelming responsibilities.
    Fourth, they failed to take into account the mental health 
of the woman before she has an abortion. Preexisting mental 
state is the most powerful predictor of post-abortion mental 
state.
    Fifth, they describe a so-called ``abortion trauma 
syndrome,'' based on anecdotal evidence. This sounds like PTSD, 
post-traumatic stress disorder, but it is not a recognized 
psychiatric disease. I published an article some years ago in 
the Journal of the American Medical Association called ``The 
Myth of the Abortion Trauma Syndrome.''
    Sixth, they do not account for pressure and coercion, as we 
heard earlier. Women who make their own decisions and receive 
support, whatever they decide, have the best mental health 
outcomes.
    Also, they do not address the mental health impact of 
barriers, social pressure, and misinformation. Imagine being 
stigmatized, having to make excuses for your absence from 
homework or school, travel a great distance, endure a waiting 
period, perhaps without money for food or shelter. Imagine 
going through a crowd of demonstrators to enter a medical 
facility. Imagine being told that the medical procedure you are 
having causes mental health problems, even though it's not 
true. Stress caused by these external factors should not be 
confused with reactions to the abortion.
    Last, they don't respect the lessons of the past. Making 
abortion illegal, which is threatened in this country, doesn't 
make it go away. When I was in medical school, hospital wards 
were filled with ill and dying women who had risked their 
health, their fertility, and their lives to have abortions 
under unsanitary conditions, without anesthesia. More fortunate 
women, like the loved ones of most of us, could find 
sympathetic physicians willing to risk their careers to provide 
abortions, or they could go to countries where abortions were 
legal and safe. Unsafe abortion is still a major cause of 
maternal mortality around the world. We have a choice. We can 
have wanted children and safe and legal abortions, or we can 
have maimed women and families without their daughters, 
sisters, wives, and mothers.
    As a mother, grandmother, practicing physician, scientific 
expert, and citizen, I hope and pray we will opt for the 
former.
    Thank you.
    [The prepared statement of Dr. Stotland follows:]

     Prepared Statement of Nada L. Stotland, MD, MPH, Professor of 
  Psychiatry and Professor of Obstetrics and Gynecology, Rush Medical 
                                College
    Good afternoon, Senators. Thank you for allowing me to appear 
before you today.
Introduction
    My name is Dr. Nada L. Stotland. I hold Doctor of Medicine and 
Master of Public Health degrees, and have been a practicing 
psychiatrist for more than 25 years. Currently I have a private 
clinical practice and am also Professor of Psychiatry and Professor of 
Obstetrics and Gynecology at Rush Medical College. I have devoted most 
of my career to the psychiatric aspects of women's reproductive health 
and health care. I have served in a number of leadership positions 
within the American Psychiatric Association, the major medical 
organization with more than 35,000 psychiatrists members in the United 
States and internationally. I spent seven years as Chair of the 
Committee on Women's Issues and currently serving as the elected 
Secretary. The official position of the American Psychiatric 
Association, the oldest and fourth largest specialty medical society in 
the United States, is that the right to terminate a pregnancy is 
important for women's mental health.
    My primary professional interest is in the psychology of pregnancy, 
labor, and childbirth. I gave birth to four wonderful daughters, now 
adults, and I was determined that their births be as safe as possible. 
I studied methods of prepared childbirth, used them, and became the 
Vice President of the national Lamaze prepared childbirth organization. 
I first became involved with the abortion issue during my specialty 
training. As a young resident in 1969, I was one day assigned a new 
patient who announced that she was pregnant and that she would kill 
herself if she were not allowed to have an abortion.
    As a practicing psychiatrist, I have seen a fifteen-year-old girl 
who was pregnant as a result of being raped by a family friend, her 
grades falling and depression descending as she and her mother 
desperately sought funds to pay for an abortion to avoid compounding on 
the trauma of the assault. I have seen a young woman who had an 
abortion in her teens without support from family or friends, and who 
did not have the opportunity to talk about her feelings until entering 
psychotherapy for other reasons later in her life. There, she concluded 
that the decision had been painful but correct, and went on to have 
several healthy children. I worked with a woman who had an abortion 
early in her life and had to come to grips, decades later, with the 
fact that she might never have a child, and in the process reaffirmed 
that she had made the right decision when she was younger. My 
professional experiences reflect the scientific findings; women do best 
when they can decide for themselves whether to take on the 
responsibility of motherhood at a particular time, and when their 
decisions are supported. No one can make the decision better than the 
woman concerned. Mental illness can increase the risk of unwanted 
pregnancy, but abortion does not cause mental illness.
    After I completed my training, President Ronald Reagan appointed 
Dr. C. Everett Koop as the Surgeon General of the United States and 
asked him to produce a report on the effects of abortion on women in 
America. Dr. Koop was known to be opposed to abortion, but he insisted 
upon hearing from experts on all sides of the issue. The American 
Psychiatric Association assigned me to present the psychiatric data to 
Dr. Koop. I reviewed the literature and gave my testimony. Later I went 
on to publish two books and a number of articles based upon the 
scientific literature. My expertise and interest in the topic later led 
me to be recruited by an education and advocacy organization for 
physicians, and I am now a board member of Physicians for Reproductive 
Choice and Health.
    Dr. Koop, though personally opposed to abortion, testified that 
``the psychological effects of abortion are miniscule from a public 
health perspective.'' It is the public health perspective which with we 
are concerned in this hearing, and Dr. Koop's conclusion still holds 
true today.
History
    Prior to the historic Roe v. Wade decision in 1973 legalizing 
abortion, many women were maimed or killed by illegal abortions. 
Abortion is still a major cause of maternal mortality around the world 
in countries where women lack access to safe and legal procedures. The 
fact is that throughout history, and all over the world, women who are 
desperate to terminate a pregnancy are willing to undergo, and do 
undergo, illicit, terrifying abortions, often without anesthesia, 
risking their health, their fertility, and their lives to do so. 
Millions of women become desperately ill, or die, in the process. 
According to the World Health Organization, 80,000 women die each year 
from complications following unsafe abortions.\1\ We can outlaw safe 
abortion, we can make it difficult to access a safe abortion, but we 
cannot keep abortions from happening.
---------------------------------------------------------------------------
    \1\ World Health Organization. Prevention of unsafe abortion. 
Available at http://www.who.int/reproductive-health/publications/
MSM_97_16/MSM_97_16_chapter5.en.html. Accessed 
3/1/04.
---------------------------------------------------------------------------
    Prior to the Roe v. Wade decision, psychiatrists were often asked 
to certify that abortions were justified on psychiatric grounds. Today 
the mental health aspects of abortion have become central in anti-
abortion literature and in debates about legislation limiting access to 
abortion. All too often legislative decisions have been based on 
inaccurate information. In some states, physicians have even been 
required by law to misinform their patients. The purpose of my 
testimony today is to provide accurate scientific information about 
mental health aspects of abortion and to inform the subcommittee about 
common errors in the methodology of some of the published studies.
Abortion and Mental Health
    Despite the challenges inherent in studying a medical procedure 
about which randomized clinical trials cannot be performed, and despite 
the powerful and varying effects of the social milieu on psychological 
state, the data from the most rigorous, objective studies are clear. 
Abortions are not a significant cause of mental illness.
    Unfortunately, there are active and somewhat successful attempts to 
convince state and national legislatures, members of the judiciary, the 
public, and women considering abortion of the negative psychiatric and 
physical consequences for which there is no good evidence.
    The vast majority of women have abortions without psychiatric 
sequelae, or secondary consequences. A study of a national sample of 
more than 5,000 women in the U.S. followed for eight years concluded 
that the experience of abortion did not have an independent 
relationship to women's well-being.\2\
---------------------------------------------------------------------------
    \2\ Russ NF, Zierk KL. Abortion, childbearing, and women's well-
being. Professional Psychology. 1992; 23: 269-280.
---------------------------------------------------------------------------
    The most powerful predictor of a woman's mental state after an 
abortion is her mental state before the abortion. The psychological 
outcome of abortion is optimized when women are able to make decisions 
on the basis of their own values, beliefs, and circumstances, free from 
pressure or coercion, and to have those decisions, whether to terminate 
or continue a pregnancy, supported by their families, friends, and 
society in general.
    I have submitted with my testimony some of the excellent scientific 
articles, published in the world's most prestigious medical journals, 
upon which I base my professional conclusions. These articles speak for 
themselves.
    I would like to address the very serious methodological errors in 
some literature claiming that abortion does cause psychological harm. 
Some articles, and statements aimed at the public, have gone so far as 
to claim the existence of an ``abortion trauma syndrome.'' We are all 
familiar with post-traumatic stress disorder, or PTSD, a condition 
tragically brought to public attention by the horrific events of 
September 11, 2001. Unlike PTSD, ``abortion trauma syndrome'' does not 
exist in the psychiatric literature and is not recognized as a 
psychiatric diagnosis. On the other hand, an article I authored, ``The 
Myth of the Abortion Trauma Syndrome,'' has been published by the 
Journal of the American Medical Association.
    The fact that there is no psychiatric syndrome following abortion, 
and that the vast majority of women suffer no ill effects, does not 
mean that there are no women who are deeply distressed about having had 
abortions. Some are members of communities that strongly disapproved of 
abortion and some were unaware of or unable to access other options. 
Some had to terminate their pregnancies illegally and dangerously, or 
in facilities where the staff blamed them for their situations. It was 
difficult in the past for some of these women to discuss their negative 
feelings. Some now actively organized to affirm and underscore those 
feelings, and to publish and publicize their accounts. These accounts, 
however, are not scientific studies, which cannot rely on self-selected 
populations, or those specifically recruited because of negative 
feelings. Public policy must not be based on bad science.
Scientific Findings
    The scientific findings are clear. Some women report feeling sad or 
guilty after having had an abortion. The most prominent response is 
relief. There is no evidence that induced abortion is a significant 
cause of mental illness. I have referenced in my written testimony the 
articles by exacting, renowned scientists who have come to that 
conclusion. There are some articles that come to other conclusions. Let 
me explain why:

  <bullet> They confuse emotions with psychiatric illnesses. The term 
        ``depression'' can be used for both a passing mood and a 
        disease. Sadness, grief, and regret follow some abortions, for 
        very understandable reasons which I will mention shortly. These 
        are not diseases. There is no evidence that women regret 
        deciding to have abortions more than they regret making other 
        decisions, including having and raising children, or allowing 
        their babies to be adopted by others. We have a 50 percent 
        divorce rate in this country. One might conclude that many or 
        most of those 50 percent regret having gotten married, but, as 
        a nation, we are working to promote marriage, not to make it 
        difficult.

  <bullet> They do not distinguish women who terminate unwanted 
        pregnancies from those who have to terminate wanted pregnancies 
        because of threats to their own health or serious malformations 
        in their fetuses. Those circumstances can cause terrible 
        disappointment, a sense of failure, and concern over the 
        possibility of future pregnancies, all of which are stressors 
        independent of the abortion itself.

  <bullet> They overlook an obvious reality: only pregnant women have 
        abortions. They fail to compare the aftereffects of abortion 
        with the aftereffects of pregnancy, labor, and childbirth. 
        Full-term pregnancy is associated with considerably greater 
        medical and psychiatric risk than is abortion.

    The incidence of psychiatric illness after abortion is the same or 
        less after birth. One study reports that for each 1,000 women 
        in the population, 1.7 were admitted to a psychiatric inpatient 
        unit for psychosis after childbirth, and 0.3 were admitted 
        after an abortion.

    More than 10 percent of women who have babies in the United States 
        develop post-partum depression, which is a diagnosable, 
        potentially serious but luckily treatable, mental illness. In 
        fact, 10 percent of women of childbearing age experience 
        clinical depression. A much smaller, but real, percentage of 
        women develop postpartum psychosis. I am sure you are familiar 
        with the tragedies that disease can cause. Some of these 
        unfortunate women kill their children and/or themselves. A far 
        lower percentage of women have clinical depression following 
        abortion, and most of these women were depressed before their 
        abortions. Complications of pregnancy or delivery increase the 
        risk of psychiatric illness. Even perfectly normal deliveries 
        make women into mothers. Being a mother, a seven day a week, 
        twenty four hour a day task, is under the best circumstances 
        the greatest joy, but even then, perhaps, the most challenging 
        and stressful responsibility anyone can undertake.

  <bullet> They fail to account for the reasons women become pregnant 
        when not intending to have babies, and the reasons pregnant 
        women decide to have abortions. Pre-existing depression and 
        other mental illnesses can make it more difficult for women to 
        obtain and use contraception, to refuse sex with exploitative 
        or abusive partners, and to insist that sexual partners use 
        condoms. Poverty, past and current abuse, incest, rape, lack of 
        education, abandonment by partners, and other ongoing 
        overwhelming responsibilities are in themselves stressors that 
        increase the risk of mental illness and increase the risk of 
        unintended pregnancy.

  <bullet> They fail to take into account the mental health of the 
        woman before she has an abortion. Pre-existing mental state is 
        the single most powerful predictor of post-abortion mental 
        state. As we all learned in school, association does not mean 
        causation. It may be the women most seriously affected by 
        mental illness at a given time who decide that it would not be 
        appropriate to become mothers at that time.

  <bullet> They do not distinguish decisions made by women, on the 
        basis of their own situations, religious beliefs, and values, 
        from abortions into which women are coerced by parents or 
        partners who view their pregnancies as inconvenient or 
        shameful. The scientific literature indicates that the best 
        mental health outcomes prevail when women can make their own 
        decisions and receive support from loved ones and society 
        whether they decide to continue or terminate a pregnancy.

  <bullet> They do not address the literature demonstrating that 
        children born when their mothers are refused abortions fare 
        poorly, and are more likely to fail in school and come into 
        conflict with the penal system, as compared with those born to 
        mothers who wanted to have them.

  <bullet> They assume that all women who have abortions require mental 
        health intervention. There is no evidence that women seeking 
        abortions need counseling or psychological help any more than 
        people facing other medical procedures. Standard medical 
        practice demands that patients be informed of the nature of a 
        proposed medical procedure, its risks, benefits, and 
        alternatives, and that they be allowed to make their own 
        decisions. Of course this applies to abortion as well. Because 
        the circumstances and decision can be stressful, most 
        facilities where abortions are performed make formal counseling 
        a routine part of patient care.

    Close to 30 percent of women in the United States of reproductive 
        years have abortions at some time in their lives,\3\ and very 
        few of these seek or need psychiatric help related to the 
        procedure, either before or after. Our role, as mental health 
        professionals, when patients do seek our consultation under 
        those circumstances, is to help each patient review her own 
        experiences, situation, plan, values, and beliefs, and make her 
        own decision. Sometimes we see patients in acute mental health 
        crises, or whose psychiatric illnesses make it more difficult 
        to assert themselves effectively with sexual partners, to ``say 
        no,'' or obtain and use contraception effectively. Sometimes we 
        see patients who are in abusive relationships where refusal to 
        comply with sexual demands can result in physical harm or 
        death, not only for themselves, but for their children. We 
        need, under those circumstances, to make sure that our patients 
        are fully informed about contraception and abortion. There are 
        now a number of institutions that forbid us to do so.
---------------------------------------------------------------------------
    \3\ Henshaw, SK. Unintended pregnancy in the United States. Fam. 
Plan. Perspect. 1998; 30(1): 24-29.

    We also see women who have taken powerful psychotropic medications 
        before becoming aware that they are pregnant, and women who are 
        at grave danger of recurrence of serious psychiatric illness if 
        they discontinue psychotropic medication, but do not wish to 
        expose an embryo or fetus to the possible effects of these 
---------------------------------------------------------------------------
        medications.

  <bullet> They do not address the impact of barriers to abortion, 
        social pressure, and misinformation on the mental health of 
        women who have abortions. Imagine being in a social milieu 
        where your pregnancy is stigmatized and abortion is frowned 
        upon, having to make excuses for your absence from home, work, 
        or school, travel a great distance to have the procedure, 
        endure a waiting period, perhaps without funds for food or 
        shelter. Imagine having to face and go through a crowd of 
        demonstrators in order to enter a medical facility. Finally, 
        imagine being told that the medical procedure you are about to 
        undergo is very likely to cause mental and physical health 
        problems--although this is not true. Any stress or trauma 
        caused by these external factors should not be confused with 
        reactions to the abortion itself.

  <bullet> They state or imply that women who become pregnant before 
        the age of legal majority are incapable of making decisions 
        about their pregnancies, and recommend that young women who 
        decide it is best to terminate their pregnancies be forced to 
        notify their parents or obtain their parents' consent. Laws 
        such as these run counter to the recommendations of the 
        American Academy of Pediatrics and to the evidence published in 
        several recent scientific studies. There is no evidence that 
        they improve family relationships or support for young women.

    In addition, these laws contradict common sense. A pregnant young 
        woman who is not permitted to have an abortion will become a 
        mother. In the United States, adolescents who are pregnant are 
        entitled to make the decision to carry their pregnancies to 
        term, and then to make decisions regarding their prenatal, 
        labor, and delivery care. Once they deliver, they are entitled 
        to make the decision to keep their infants or choose to release 
        them for adoption. If they choose to keep their infants, they 
        are completely legally responsible and entitled to make all 
        parental decisions, including those regarding major medical 
        interventions. Requiring parental consent means that we entrust 
        the care and protection of a helpless infant to a woman we have 
        deemed too immature to decide whether to become a mother or 
        not. ``Pregnancy among school-age youth can reduce their 
        completed level of education, their employment opportunities, 
        and their marital stability, and it can increase their welfare 
        dependency.'' \4\
---------------------------------------------------------------------------
    \4\ Nord, CW, et al., Consequences of teen-age parenting. J Sch 
Health 1992; 62: 310-318.

    One study involved adolescents who had negative pregnancy tests 
        with those who were pregnant and carried to term and those who 
        were pregnant and had terminated the pregnancy. All three 
        groups had higher levels of anxiety than they showed one or two 
        years later. But the interesting result was that two years 
        later, the adolescents who had abortions had better life 
        outcomes--including school, income, and mental health--and had 
        a significantly more positive psychological profile, meaning 
        lower anxiety, higher self-esteem, and a greater sense of 
        internal control than those who delivered and those were not 
        pregnant.\5\
---------------------------------------------------------------------------
    \5\ Zabin LS, et al., When urban adolescents choose abortion: 
effects on education, psychological status and subsequent pregnancy. 
Fam. Plann. Perspect. 1989; 21: 248.

    It is already an accepted part of medical practice to help a young 
        woman think through her situation realistically and involve her 
        parents if she then decides that it would be a good idea to do 
---------------------------------------------------------------------------
        so. Usually that is exactly what she decides.

  <bullet> They assume that adoption is a benign option. We are often 
        reminded that pregnant women who do not wish to become mothers 
        have the option of delivering their babies and allowing other 
        families to adopt them. Those who do so may feel that they have 
        offered the babies a good life and made another family happy. 
        However, the real data on the impact of giving up babies for 
        adoption is very limited. Women whose babies have been adopted 
        often do not wish to be followed up in studies of their 
        emotional adjustment. Much of the literature on this topic is 
        based on self-selected subjects. Many of them report long-
        standing distress as a result of giving up their babies. The 
        few studies on more randomly selected populations seem to 
        demonstrate that the psychological sequelae of adoption for 
        biological mothers are more intense than those affecting women 
        who choose to abort.

  <bullet> They make incorrect assertions about medical sequelae of 
        abortion. Breast cancer is a good example. ``The relationship 
        between induced and spontaneous abortion and breast cancer risk 
        has been the subject of extensive research beginning in the 
        late 1950s. Until the mid-1990s, the evidence was inconsistent. 
        . .Since then, better-designed studies have been conducted. 
        These newer studies examined large numbers of women, collected 
        data before breast cancer was found, and gathered medical 
        history information from medical records rather than simply 
        from self-reports, thereby generating more reliable findings. 
        The new studies consistently showed no association between 
        induced and spontaneous abortions and breast cancer risk.'' \6\
---------------------------------------------------------------------------
    \6\ National Cancer Institute. Abortion, miscarriage, and breast 
cancer risk. 5/30/03.

    The most highly regarded and methodologically sound study on the 
        purported link between abortion and breast cancer indicates 
        that there is no relationship between induced abortion and 
        breast cancer.\7\ In contrast with most of the studies in this 
        area, this study contains a large study sample (1.5 million 
        women) and relies on actual medical records rather than women's 
        recollection, which can be influenced by fear and the attitudes 
        of their community.
---------------------------------------------------------------------------
    \7\ Melbye M, et al., Induced abortion and the risk of breast 
cancer. The New England Journal of Medicine. 1997; 336(2): 81-85.

    In February 2003, the National Cancer Institute, a part of the U.S. 
        Department of Health and Human Services, brought together more 
        than 100 of the world's leading experts on pregnancy and breast 
        cancer risk. Workshop participants reviewed existing 
        population-based, clinical, and animal studies on the 
        relationship between pregnancy and breast cancer risk, which 
        included studies of induced and spontaneous abortions. This 
        workshop ``concluded that having an abortion does not increase 
        a woman's subsequent risk of developing breast cancer.'' \8\ 
        The World Health Organization, which conducted its own review 
        of the subject, came to the same conclusion.\9\
---------------------------------------------------------------------------
    \8\ National Cancer Institute. Summary report: Early reproductive 
events and breast cancer workshop. 3/25/03
    \9\ World Health Organization. Induced abortion does not increase 
the risk of breast cancer. Fact Sheet No. 240: June 2000.

    In plain language, there is no medical basis for the claim that 
        abortion increases the risk of breast cancer. This position, 
        shared by the National Cancer Institute and the American Cancer 
        Society is based on a thorough review of the relevant body of 
        research. Among studies that show abortion to be associated 
        with a higher incidence of breast cancer, most are unreliable 
        due to recall bias and other methodological flaws. By contrast, 
        studies that were designed to avoid such biases show no 
        relationship. It is irresponsible for politicians to develop 
---------------------------------------------------------------------------
        public policy that is based upon false medical allegations.

  <bullet> They don't remember the past. They fail to acknowledge that 
        abortion has existed and been practiced in every known society, 
        throughout history. When I was in medical school, there were 
        emergency rooms and hospital wards literally filled with direly 
        ill and dying women who had risked their health, their future 
        fertility, and their lives to have abortions under unsanitary 
        conditions, often without anesthesia of any kind. More 
        fortunate women were insulated from these horrific experiences. 
        They could find sympathetic physicians willing to risk their 
        careers to provide abortion services, or go to countries where 
        abortion was safe and legal. Globally one in eight pregnancy-
        related deaths, an estimated 13 percent, are due to an unsafe 
        abortion.\10\
---------------------------------------------------------------------------
    \10\ World Health Organization. Prevention of unsafe abortion. 
Available at http://www.who.int/reproductive-health/publications/
MSM_97_16/MSM_97_16_chapter5.en.html. Accessed 3/1/04.

    Psychiatric and other medical rationales for legal barriers to 
abortion are spurious and injurious to women's mental and physical 
health. Our patients look to us, their physicians, to provide sound 
scientific information to help them make informed decisions about 
health issues. The allegation that legal abortions, performed under 
safe medical conditions, cause significant severe and lasting 
psychological or physical damage is not born out by the 
facts.\11\<SUP>,</SUP>\12\<SUP>,</SUP>\13\
---------------------------------------------------------------------------
    \11\ Blumenthal SJ. An overview of research findings. In Stotland, 
NL, ed. Psychiatric Aspects of Abortion. Washington, DC: American 
Psychiatric Press. 1991.
    \12\ Dagg PKB. The psychological sequelae of therapeutic abortion--
denied and completed. Am J Psychiatry. 1991; 148: 578-585.
    \13\ Osofsky JD, Osofsky JH. The psychological reaction of patients 
to legalized abortion. Am J Orthopsychiatry. 1972; 42: 48-60.
---------------------------------------------------------------------------
    We can have wanted children and safe and legal abortions, or we can 
have maimed women and families without their daughters, sisters, wives, 
and mothers. As a mother, grandmother, practicing physician, scientific 
expert, and citizen, I hope and pray we will opt for the former.
    Thank you again for the opportunity to speak with you today.
Other References
    Major B, Cozzarelli C, Cooper ML, Zubek J, et al., Psychological 
responses of women after first-trimester abortion. Arch Gen Psychiatry. 
2000 Aug; 57: 777-84.
    Adler NE, David HP, Major BN, Roth SH, Russo NF, Wyatt GE. 
Psychological responses after abortion. Science. 1990 Apr; 248: 41-4. 
Pope LM, Adler NE, Tschann JM. Postabortion psychological adjustment: 
are minors at increased risk? J Adolesc Health. 2001 Jul; 29: 2-11.
    Zabin LS, Hirsch MB, Emerson MR. When urban adolescents choose 
abortion: effects on education, psychological status and subsequent 
pregnancy. Fam. Plann. Perspect. 1989 Nov-Dec; 21: 248-55.
    Thomas T, Tori CD. Sequelae of abortion and relinquishment of child 
custody among women with major psychiatric disorders. Psychol. Rep. 
1999 Jun; 84: 773-90.
    Dagg P. The psychological sequelae of therapeutic abortion--denied 
and completed. Am. J. Psychiatry. May 1991.
    Quinton WJ, Major B, Richards C. Adolescents and adjustment to 
abortion: are minors at greater risk? Psychol. Public Policy Law. 2001; 
7: 491-514.
    American Academy of Pediatrics. The adolescent's right to 
confidential care when considering abortion. Pediatrics. 1996 May; 97: 
746-51.
    David HP, Dytrych Z, Matejcek Z. Born unwanted: Observations from 
the Prague study. American Psychologist. 2003 March; 58: 224-29.
    Greene MF, Ecker JL. Abortion, health, and the law. The New England 
Journal of Medicine. 2004 Jan 8; 350: 184-86.
    Drazen JM. Inserting government between patient and physician. The 
New England Journal of Medicine. 2004 Jan 8; 350: 178-79.

    Senator Brownback. Dr. Shadigian, I want to go into the 
specific physical items that you cite in your review. You did a 
review of the studies that have been done on the impacts of 
abortion on women, is that correct?
    Dr. Shadigian. That's correct. It's an international 
literature review that looks at studies that have been done all 
over the world about different health outcomes. Some of them 
were psychological outcomes, but most of them were physical 
outcomes.
    Senator Brownback. OK, I want to focus on the physical 
outcomes, if we could, and that's what you've primarily focused 
on here. Apparently, there have been some studies done in a 
number of different countries on the impact of abortion, and 
you list four areas of increased problems for women in your 
literature review, is that correct?
    Dr. Shadigian. That is correct.
    Senator Brownback. What do we know, from studies either 
abroad or here about the increased possibilities of breast 
cancer in women who have abortions?
    Dr. Shadigian. One thing that basically all scientists 
agree on is that if a woman, for example, at 18 years of age, 
has an abortion, versus going to term with that baby, and the 
women who have the abortion and then have their baby at age 30, 
the women who aborted first and then delayed their childbearing 
probably double their five-year and lifetime risk of breast 
cancer. This is called the loss of protective effect of a 
pregnancy on a woman's risk of breast cancer.
    A more controversial area, and a second area of breast 
cancer interest is independent effect, that the abortion itself 
would somehow increase the risk of a woman having breast cancer 
later. And this is hypothesized from rat data and also from 
data on women, because their breasts don't mature the same way 
when there's an abortion that takes during the pregnancy, 
especially in the first or second trimester, versus going 
toward their due date and having their baby.
    So in terms of breast cancer risk, comparing an 18 year old 
to a 30 year old, it basically doubles their breast cancer risk 
for something called just loss of protective effect. Women, we 
know, who have children earlier in their lives have less breast 
cancer, and that's data from the 1970s. And that's not what is 
disputed. In fact, the National Cancer Institute agrees with 
that.
    Senator Brownback. That data is not disputed.
    Dr. Shadigian. That part is not disputed. The only part 
that is disputed, and why we need more studies on the topic 
is--this independent effect.
    Senator Brownback. Were the studies in dispute on the 
second associated of higher levels of breast cancer?
    Dr. Shadigian. The studies on independent effect are more 
difficult to analyze because of their retrospective, or 
``looking backward,'' nature for most of them, and also because 
there could be different ways of reporting abortions in the 
environment in which those are done. There are several 
different issues around it.
    Basically, the best thing would be to actually look at data 
where they have big data sets, where we can actually look at 
women who have had induced abortion early in their lives and 
then look at breast cancer registries and see if there's any 
increased risk or not. And places like New York State have such 
data registries.
    Senator Brownback. But we don't have that data available--
--
    Dr. Shadigian. We don't have that data yet. So there are 
some things we've seen, but some things we really need to start 
looking at in more intense detail.
    Senator Brownback. And that's--you would request--you would 
like to see more information and research on that breast cancer 
link, is that right?
    Dr. Shadigian. Right. I just looked at the new numbers, and 
it looks like about one in seven women will get breast cancer 
within their lifetime. So it is a very important topic for 
women.
    Senator Brownback. Dr. Stotland, I presume you wouldn't 
disagree with that.
    Dr. Stotland. Let me clarify what Dr. Shadigian has just 
said. It's better to have your children when you're young. 
Well, we could have a policy about that. It has nothing to do 
with the abortion; it has to do with having your children later 
or earlier. Nothing to do with the abortion.
    In terms of the breast cancer in the independent effect, 
there was just recently a consensus conference. A number of 
scientists came together because there was a government Website 
that was saying there was an association, and that has been 
removed from the government Website, because a large group of 
experts on this have concluded that we do have the evidence, 
and abortion is not associated with breast cancer. And the fact 
that there is a lot of breast cancer is a shame, but it has 
nothing to do with abortion.
    Senator Brownback. Dr. Shadigian, your response or 
thoughts?
    Dr. Shadigian. Well, I was really disappointed in the NCI 
panel, because they wouldn't give a minority opinion. The 
majority opinion was that there was no association or 
independent effect, but there were several dissenters who 
actually were at the NCI meeting, and they weren't allowed to 
publish any of their thoughts.
    So I think, especially around these issues, if people could 
just come together and put the politics aside and actually do 
the better studies, and if we could all commit to have 
researchers with different pro-life or pro-choice biases, 
Republican, Democrat, just from all different areas, if they 
could all get together and say, ``You know, we want to do the 
best study we can to really see if there's an effect,'' rather 
than just saying, ``Oh, for sure there is and for sure there 
isn't,'' when there really isn't the best data to say, on 
either end of the issue, that we'd probably get a lot farther 
than just saying yea or nay. Just like the Supreme Court always 
has a majority opinion and a minority opinion, we should be 
doing that in science, as well.
    Senator Brownback. Placenta previa, what did you base the 
statement that this is increasing upon?
    Dr. Shadigian. There were several studies that looked at 
placenta previa. Again, this is where the placenta grows over 
the cervix of a woman and doesn't allow the baby to come out 
vaginally, then becomes necessary to have a C-section. And 
there's a lot of more bleeding and blood transfusions in C-
sections, and, therefore, maternal deaths, from placenta 
previa. Basically, the risk was increased by 50 percent for 
women who have had induced abortions.
    Senator Brownback. Pre-term birth, you reviewed studies and 
literatures from around the world on this issue?
    Dr. Shadigian. Yes. Pre-term birth is one of the ones that 
has actually the strongest data in the things that are some of 
the most remarkable, in terms of pre-term birth. The reason is, 
is that a lot of the--I'm going to go back to what Dr. Stotland 
said about Dr. Koop's report--a lot of this data has been since 
Dr. Koop's report. He looked at data in 1989 and 1990, and now 
we have studies from the mid-1990s that, in fact, show that not 
only if a woman has a history of one induced abortion, that 
she's maybe up to twice as likely to have an early baby, but, 
in fact, the more abortions she's had--two, three, four--it 
actually increases her risk over time. That's called a dose-
response effect. The more number you have of a certain risk 
factor, then the higher the outcome is.
    And what's so important about this, we spend so much money 
on this country taking care of little, tiny babies, who are 
born way too early, and it costs a lot of money; and it also, 
not only costs money to take care of the children, but, in 
fact, there are long-term effects, such as cerebral palsy, 
respiratory disease in these babies, so it's a huge impact for 
that. And women in their reproductive years need to know that 
they might be at higher risk, of even twice higher risk, of 
having an early baby so that their obstetricians can take care 
of them better and monitor the cervical length and do other 
tests to prevent pre-term births. So, not only do women need to 
know, but doctors need to know how to take care of the women 
they take care of.
    Senator Brownback. Now, maternal suicide, what all data did 
you review to come up with the conclusion that this area 
increases?
    Dr. Shadigian. I like Dr. Stotland's point about it's hard 
to show that there's a lot of negative psychological sequelae, 
in terms of post-traumatic stress or depression. I think she's 
right that those are harder things to prove. But the 
interesting thing about the suicide is, that's a hard endpoint. 
That's not something that a point or two on a depression scale 
is going to make a big difference. But whether a woman kills 
herself or not, that's something that is a hard endpoint and 
why it's so concerning that women who have had an induced 
abortion have two-and-a-half to three times the rate of suicide 
later on in their life, within a year or up to 8 years.
    The important point about that data is, it doesn't mean 
that women having an abortion are committing suicide, but that 
there's some kind of correlation. Not that the induced abortion 
causes the suicide, but there's a correlation going on, and we 
need to figure that out. Is there another factor going on, in 
between the induced abortion and the suicide, or not? So we 
need to get more data. But the data on those two--on the 
suicide, the two studies from Finland and also from California, 
are very compelling. In fact, the California data showed that 
all kinds of death is higher in women who have had an induced 
abortion.
    Senator Brownback. All kinds of death.
    Dr. Shadigian. Right.
    Senator Brownback. What do you--identify what----
    Dr. Shadigian. They looked at cardiovascular disease, they 
looked at homicide, they looked at all kinds of deaths, and it 
turns out that all deaths are higher in women who have induced 
abortions.
    Senator Brownback. And did they make any conclusions? Can 
they not make conclusions as to what the correlation or 
causation might be?
    Dr. Shadigian. I think we can't decide why yet. I think 
that's--the whole point of this, there are things pointing us 
in directions at this point. This is the first article we've 
ever had looking at the world's literature and trying to sort 
it in terms of topic, and see if there are any kind of trends 
going on. And when we see a trend, it's something we should 
investigate and do better research on.
    I thought the other thing that was so fascinating was that 
our other panel, many of the women didn't know if maybe 
infertility was higher if they've had an abortion, or 
miscarriages. It turns out, when we looked at this data, it 
wasn't. So those are things that women shouldn't be worried 
about if they've had an induced abortion, if they're going to 
have more miscarriages or more infertility.
    So I think the point is, we don't want to falsely assure or 
we don't want women to worry about things that they really just 
don't need to worry about.
    Senator Brownback. And that would be my thought of areas 
that we need to research, is that these statements and claims 
and research keeps coming forward, but the environment is so 
politically charged. It's as if we cannot or we dare not advise 
women of the choice. It's just do it or don't do it. And we 
aren't going to really advise you of consequences, even though 
in virtually every other medical setting, certainly in every 
advertising that's on television today of any drug that you 
take, there's the list of all of these consequences of 
potential side effects, and we tend to like that. We want to 
know. And that's the case here. We need to know what the case 
is.
    Dr. Shadigian. I really think that the Federal Government 
has a wonderful opportunity here to fund the right kind of 
research with the right kind of scientists from all ends of the 
political spectrum so that women can get real answers about 
their healthcare afterwards. This isn't about just at the time 
of decisionmaking for women, but, in fact, following women for 
their whole entire lives afterwards. How can doctors make good, 
rational decisions with their patients unless they have good 
data?
    Senator Brownback. You've identified several areas of 
needed increased research that we'll look at on a Federal level 
of providing additional research funding on, its positive or 
negative impacts of abortion on women. What other areas that 
you haven't identified here would need to be researched to 
provide practitioners with more or better data?
    Dr. Shadigian. I think the other big thing is maternal 
mortality, that we need to understand how many women really die 
from childbirth, from induced abortions, from ectopic 
pregnancy, from both surgical and medical induced abortions. 
And so it's important that the Federal Government get involved. 
And CDC does collect information on abortion mortality and 
maternal mortality, so we already have mechanisms in place; we 
don't need to recreate the wheel. But we need to tighten the 
system up, we need to have scientists come in and say how can 
we really get better data. A women may come in with a pulmonary 
embolus, which is a clot in her lungs. She gets admitted to an 
intensive care unit. No one takes her reproductive history if 
she's previously had a--necessarily either an abortion or even 
a term baby. A lot of times they may come in comatose. And we 
don't count those numbers on either side of the equation. So we 
need to start counting the numbers and figuring out if there 
are correlations or not.
    Senator Brownback. You've put forward a broad study, an 
excellent study. How have you been received? Has this been a 
difficult political climate to put a study out, given the 
charged atmosphere around this?
    Dr. Shadigian. I've been surprised that the American 
College of OB/GYN and other medical organizations haven't 
started talking about it more. Instead, they just rely on the 
old data, and haven't been talking about it more, sometimes 
when a study comes out, it takes awhile, but it's been out over 
a year now. I'm just surprised that more people aren't 
interested in talking about it. But I think people are scared. 
I think the important thing is to be brave, and that physicians 
need to be brave, and women need to be brave and start talking 
how do we figure out how to do these studies?
    Senator Brownback. People are scared. Scared to talk about 
this? Scared that something'll change in the political 
atmosphere if they do talk about it?
    Dr. Shadigian. I think people are just scared to know the 
information, that they were given assurances that there wasn't 
any problem, by major medical organizations, and now that there 
might be, is a little frightening to some people, and they're 
not sure, you know, what to do about it. So I think just the 
fact that we're talking about and it's OK to talk about it, is 
very helpful.
    Senator Brownback. Dr. Stotland, your area is primarily in 
psychiatric work, so it'll be on mental health issues that you 
would know the most, and that's your practice, primarily?
    Dr. Stotland. Yes.
    Senator Brownback. You heard the--you were here for the 
first panel to talk about some of the stress situations. Is 
there any data you would like to know that isn't broadly 
available on the impact of abortion on women, psychologically?
    Dr. Stotland. I think it would be useful to know more about 
the impact of restrictive laws and demonstrators and so on. I 
think those are big problems. In fact, in several states we are 
giving people or misleading information about the incidence of 
depression and so on that doesn't--often information that 
doesn't compare childbirth with abortion just takes abortion 
separately. And information about the quality of the research 
that's being published--for example, when we talk about 
maternal suicide, that's why I mentioned that we have to 
understand why someone gets pregnant when they don't want to be 
and has an abortion in the first place. We heard these horrible 
stories about people being coerced, people not being treated 
well, and so on. We can't confound, as we say in science, those 
variables with the variables of having an abortion. It stands 
to reason that people who are in trouble, overwhelmed, poor, 
raped, et cetera, et cetera, would be at higher risk for a 
suicide later on, and all kinds of bad outcomes, and deaths 
from other reasons, because it's not our happiest population. 
Our lucky people don't get pregnant in the first place.
    Senator Brownback. As a researcher, you would want to know 
more of that correlation, I would guess.
    Dr. Stotland. Well, I think we've got that data. We've got 
over a million, as you referenced earlier, abortions happening 
in this country a year now, and we just don't see all the 
terribly sick people coming into our offices.
    Senator Brownback. So you don't want to know that data.
    Dr. Stotland. I think we're clear about the quality of the 
data on the maternal suicide. I would like to know more about 
the impact of having someone else adopt your child. There's 
some--the only data we have on that is mostly self-selected 
populations, and those people are pretty unhappy.
    Senator Brownback. So you might support a broad research 
set that would include your objectives with, then, a better, 
broader study. Because I think that's what Dr. Shadigian is 
getting at, we need to know more information here so that 
people, when they would get counseling, they can make a more 
informed decision. We've left this choice and placed it on 
people in a difficult situation, and that we would want them to 
have as much information about, well, what does happen to a 
mother if she lets somebody adopt her child, or what does 
happen to a mother if she gets an abortion, that we would want 
to provide that level of knowledge to a person in a tough 
choice.
    Dr. Stotland. Well, my concern about that, aside from the 
fact that it's an enormous task, and the difficulty is that so 
many other things happen to women in their lives that it's 
really hard to impute their condition 20 years later to a 
procedure that they had for 5 minutes, even in the context of a 
decision of a difficult time long ago, and also that in the 
climate today, which I would characterize as people being more 
afraid in this climate of talking about abortion being OK than 
it not being OK--we don't have a representatives from ACOG here 
today, which is kind of interesting--that you start tracking 
people who have an abortion, when we already have Websites, we 
already have people taking pictures of people who have 
abortions, publishing their names, publishing their addresses. 
I have only published literature on this subject; I don't do 
abortions, and people have published my children's addresses on 
the Web. So I'm a little worried about how we would undertake 
this study without exposing a great number of women, who have a 
private medical procedure, to being harassed and worse.
    Senator Brownback. Well, I understand your concern on 
privacy, and I think that's very legitimate. On the other hand, 
I do think we really need to provide as information, and up to 
date--as I see from Dr. Shadigian's work, that we really need 
to know a lot more. And so that person, who is in a tough 
situation, can make as long-term and informed a choice as 
possible.
    I appreciate very much--Dr. Shadigian, I hope you continue 
to do your research and review of this. It has been striking to 
me to see the shortage of material on something that's so 
common, we really should be trying to hve the best information 
as possible for people's choice, for their long-term health.
    How do you advise patients, when they come in, that are 
contemplating abortion? You don't do the abortion, but you 
might come in contact with people that are considering that. Is 
there information you rely upon to date to be able to advise 
people?
    Dr. Shadigian. Well, I have lots of women come in with 
pregnancies that they didn't necessarily want at the beginning. 
In fact, about 40 to 60 percent of all women say they don't 
want their pregnancy right at the beginning, that it's not 
something they planned. I guess unplanned is a better word. So 
I see women all the time who are in that situation, because I'm 
in a general office setting. So I talk to women all the time, 
and basically I tell them that they need to just think really 
hard about what they're doing and what is--you know, why 
they're doing it. If it's because they don't have money for a 
baby, if it's because they aren't wed, or for other reasons, 
they just need to think really hard about is that the most 
important thing or not. They need to put it in context. It 
turns out that there has been some research that showed women 
who did choose abortion had some better college outcomes and 
some other things, and that's Dr. Lori Zabin's research, from 
Hopkins.
    So I tell women that it's their choice. They need to make a 
decision that makes sense for them at the time. They need to be 
aware of the long-term complications--and I, in fact, even made 
a patient brochure about that, so they could understand those 
things--and that they need to know that it's a legal procedure, 
and it's safe in the right kind of people's hands who know what 
they're doing, but that, you know, I can't tell them what to 
do. It's up to them what to do.
    So I try to always tell them, also, that I'd be glad to 
take care of them, whether they choose to have an abortion or 
whether they choose not to.
    Senator Brownback. Do you advise them about the concern of 
breast cancer, placenta previa, pre-term birth, or maternal 
suicide?
    Dr. Shadigian. Yes.
    Senator Brownback. Is that common advice or practice, or is 
that because you've been doing this research and so you know 
these cases exist?
    Dr. Shadigian. I probably have been some of the first 
people to do that because I do know the data so well. But the 
whole point is, we need to, you know, let the other doctors 
understand what those issues are. Not just OB/GYNs counsel 
women. People at Planned Parenthood counsel women, people in 
psychiatry offices and family practices offices--women go to 
their doctors and to other healthcare professionals, and they 
just need to hear all the information and let them make 
decisions on their own.
    I don't think this data is going to make people choose to 
have an abortion or not just because of the long-term effects. 
I don't think that's going to have a huge impact in a crisis 
pregnancy situation. But it is something they need to know, and 
they do need to know they might have a twice-greater risk of 
having a pre-term baby the next time. They do need to know 
that. Whether that's going to influence their decision at the 
moment with a crisis pregnancy is, again, another area we could 
study.
    Senator Brownback. Don't we also know that there are 
certain--when women have a certain genetic sequence--over the 
higher risk for breast cancer, of a certain genetic sequence?
    Dr. Shadigian. Yes.
    Senator Brownback. In the future, are we going to want 
people to know if they're at a higher risk there when make that 
decision for an abortion, based upon breast cancer issues? Or 
are we not going to want to let people know that?
    Dr. Shadigian. Well, I think women need to know what the 
numbers show. You can liken this whole issue of breast cancer 
also to women on oral contraceptive pills who have half the 
risk of ovarian cancer. So as a preventative measure for 
ovarian cancer, we put women on birth control pills. If women 
want to know how to reduce their chance of breast cancer, they 
need to know--it doesn't mean they're going to have kids early. 
If I'm a woman whose mother and grandmother both had breast 
cancer, and I'm at high risk, I need to know that I could have 
both my breasts removed to reduce my risk of breast cancer, I 
need to know that if I have my kids earlier in my life I could 
reduce my breast cancer risk, and if I breast fed for at least 
12 months out of my life I could reduce my breast cancer risk. 
I could make certain dietary changes. Any woman deserves to 
know what those risks are.
    This is just one piece of the puzzle. It's not just about 
abortion, but it's about counseling women about their health 
choices and reproductive choices.
    Senator Brownback. And that's the issue.
    Thank you very much, ladies. I appreciate your input on 
this tough subject, which is difficult to even broach. But with 
the prevalence of abortion in America and the effects on women 
and--as I got into this issue more and more, it seemed to me 
that the vast group that was under-discussed was the impact on 
women of abortion. It was one that both sides--one was fighting 
for a right; the other was fighting for what's happening to 
this child, and left out was what is happening here to the 
woman that goes through this process. It's such a politically 
charged atmosphere that it's tough, because there's a lot of 
judgmentalism. We're not talking about really what's happening 
to this precious person here in a crisis situation. And we 
really need to try to disassociate ourselves, if we can, from 
some of the battleground issues of it and provide as much data, 
hard information, as we can.
    So thank you both very much for coming forward. We will 
keep the record open for the requisite number of days. If you'd 
like to put in additional information, or if you have specific 
suggestions on Federal research that needs to be done that 
would be helpful, I would certainly entertain that and would 
like to hear about it.
    Dr. Stotland. Thank you, Senator.
    Dr. Shadigian. Thank you, Senator.
    Senator Brownback. Thank you all for coming.
    The hearing's adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]

                                  [all]
                                  
                                  

                  This page intentionally left blank.

      
</pre></body></html>
